<html>
<title> - S. 1366, THE CHRONIC WASTING DISEASE FINANCIAL ASSISTANCE ACT OF 2003, AND TO CONSIDER VIEWS ON THE SUBJECT OF CHRONIC WASTING DISEASE</title>
<body><pre>[Senate Hearing 108-503]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-503
 
                  S. 1366, THE CHRONIC WASTING DISEASE
                   FINANCIAL ASSISTANCE ACT OF 2003,
                  AND TO CONSIDER VIEWS ON THE SUBJECT
                       OF CHRONIC WASTING DISEASE

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON FISHERIES, WILDLIFE, 
                               AND WATER

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 6, 2004

                               __________

  Printed for the use of the Committee on Environment and Public Works


                    U.S. GOVERNMENT PRINTING OFFICE
94-603                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texas                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                              ----------                              

             Subcommittee on Fisheries, Wildlife, and Water

                   MICHAEL D. CRAPO, Idaho, Chairman
JOHN W. WARNER, Virginia             BOB GRAHAM, Florida
LISA MURKOWSKI, Alaska               MAX BAUCUS, Montana
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 6, 2004
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     2
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     1
Baucus, Hon. Max, U.S. Senator from the State of Montana, 
  prepared statement.............................................    32
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    31
Feingold, Hon. Russell D., U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    32

                               WITNESSES

Clifford, John, Assistant Deputy Administrator, National Health 
  Policy and Programs, U.S. Department of Agriculture, 
  Washington, DC.................................................     6
    Prepared statement...........................................    34
    Responses to additional questions from:
        Senator Feingold.........................................    35
        Senator Allard...........................................    37
George, Russell, executive director, Colorado Department of 
  Natural Resources, Washington, DC..............................    19
    Prepared statement...........................................    44
Groat, Charles G., Director, U.S. Geological Survey, U.S. 
  Department of the Interior.....................................     7
    Prepared statement...........................................    38
        Responses to additional questions from:
        Senator Allard...........................................    41
        Senator Feingold.........................................    42
Taylor, Gary J., legislative director, International Association 
  of Fish and Wildlife Agencies, Washington, DC; accompanied by 
  Tom Thorne, chair, Fish and Wildlife Health Subcommittee on 
  Chronic Wasting Disease, International Association of Fish and 
  Wildlife Agencies..............................................    21
    Prepared statement...........................................    46
Walther, Jack O., president, American Veterinary Medical 
  Association, Washington, DC....................................    22
    Prepared statement...........................................    49
Wolfe, Gary, project leader, Chronic Wasting Disease Alliance, 
  Missoula, MT...................................................    24
    Prepared statement...........................................    53

                          ADDITIONAL MATERIAL

Position statement, American Veterinary Medical Association......    51
Statements:
    Bechtel, Richard F., senior legislative representative for 
      wildlife policy, National Wildlife Federation..............    60
    Hassett, P. Scott, secretary, Wisconsin Department of Natural 
      Resources, Department of Agriculture, Trade, and Consumer 
      Protection.................................................    57
Text of bill, S. 1366............................................    62


                  S. 1366, THE CHRONIC WASTING DISEASE
                 FINANCIAL ASSISTANCE ACT OF 2003, AND
                    TO CONSIDER VIEWS ON THE SUBJECT
                       OF CHRONIC WASTING DISEASE

                              ----------                              


                         TUESDAY, APRIL 6, 2004

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Fisheries, Wildlife, and Water,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:34 a.m., in 
room 406, Senate Dirksen Building, Hon. Michael D. Crapo 
(chairman of the subcommittee) presiding.
    Present: Senators Crapo and Allard.

 OPENING STATEMENT OF HON. MICHAEL D. CRAPO, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Crapo. This hearing will come to order.
    This is a hearing on the Subcommittee on Fisheries, 
Wildlife, and Water of the Environment and Public Works 
Committee. Today we will be dealing with S. 1366, the Chronic 
Wasting Disease Financial Assistance Act of 2003, and to 
consider views on the subject of chronic wasting disease.
    The purpose of this hearing is to be sure that we are doing 
all we can to determine the extent of this disease and to 
manage it. States and Federal agencies have started on this 
mission, in some cases, by diverting existing resources. This 
shows how seriously all are taking the threat, but I want to be 
sure that our efforts are sustainable.
    Chronic wasting disease is a national problem. It has 
existed in Colorado and Wyoming for 40 to 50 years and has 
since been found in 11 other States and two provinces in 
Canada. Although CWD is not yet found in Idaho, my home State, 
Idaho is bordered by Montana and Wyoming, two States with known 
positive animals.
    CWD poses serious problems for wildlife managers. 
Surveillance is costly and draws resources from other wildlife 
management needs. Public concerns and perception about human 
health risks may degrade hunters' confidence in their desire to 
hunt in areas where CWD occurs. This could have substantial 
economic implications for States where hunting and wildlife 
watching contribute significantly.
    The lack of understanding of CWD transmission and whether 
it can cause disease in humans or other animals is of grave 
concern. Management of this disease is hindered, in part, by 
the fact that testing is not possible on live animals. Due to 
scheduling conflicts, Senator Feingold could not testify today. 
However, I would like to submit his testimony for the record.
    Without objection, so ordered.
    [The prepared statement of Senator Feingold may be found on 
page 33.]
    Senator Crapo. Today we are going to hear about the status 
of existing efforts and a review of a bill that I am proud to 
cosponsor with my friend, Senator Allard, Senator Feingold, and 
Senator Domenici.
    [The prepared statement of Senator Michael D. Crapo 
follows:]

  Statement of Hon. Michael D. Crapo, U.S. Senator from the State of 
                                 Idaho

    The purpose of this hearing is to make sure we are doing all that 
we can to determine the extent of this disease and manage it. States 
and Federal agencies have started on this mission using--in some cases, 
diverting--existing resources. This shows how seriously all are taking 
the threat, but I want to be sure that our efforts are sustainable.
    Chronic Wasting Disease (CWD) is a national problem. It has existed 
in Colorado and Wyoming for 40 to 50 years and has since been found in 
11 other states and two provinces in Canada.
    Although CWD is not found in Idaho yet, it is bordered by Montana 
and Wyoming, two states with known positive animals.
    CWD poses serious problems for wildlife managers. Surveillance is 
costly and draws resources from other wildlife management needs.
    Public concerns and perceptions about human health risks may 
degrade hunters confidence and their desire to hunt in areas where CWD 
occurs. This could have substantial economic implications for states 
where hunting and wildlife watching contribute significantly.
    The lack of understanding of CWD transmission and whether it can 
cause disease in humans or other animals is of concern.
    Management of this disease is hindered in part by the fact testing 
is not possible on live animals.
    Due to scheduling conflicts, Senator Feingold could not testify 
today. However, I would like to submit his testimony for the record.
    Today we will hear about the status of existing efforts and review 
a bill that I am proud to cosponsor with my friends, Senator Allard, 
Senator Feingold, and Senator Domenici.

    Senator Crapo. With that, we will turn to you, Senator 
Allard, for your opening statement.

OPENING STATEMENT OF WAYNE ALLARD, U.S. SENATOR FROM THE STATE 
                          OF COLORADO

    Senator Allard. Thank you, Mr. Chairman.
    I have spoken out strongly that we must deal with chronic 
wasting disease, also known as CWD. It gives me great pleasure 
to work with you. I appreciate your willingness to get involved 
in both bills before us today and for holding this hearing.
    I would like to welcome all the witnesses here today. I 
sincerely appreciate the opportunity to learn more about the 
more recent developments in research, management, and the 
eradication of this disease.
    I extend a special welcome to my friend, Russell George 
from Colorado, the executive director of the Colorado 
Department of Natural Resources. I welcome you to the 
subcommittee, Director. Your expertise and leadership on this 
matter will provide tremendous insight to the members of this 
subcommittee and those listening today.
    In 1967, one year before I received my Doctorate of 
Veterinary Medicine at Colorado State University, scientists 
just a few miles up the road were grappling with a strange, new 
wasting disease that had decimated their deer population. The 
discovery launched researchers at the foothills campus into the 
field of prion research, a heretofore unknown field of science 
that even today little is known about.
    Three decades later, tragically chronic wasting disease was 
discovered outside the fences of the campus in both wild and 
captive cervid populations. As scientists work to unravel the 
mystery of the folded proteins, State departments of resources 
and agriculture scramble to get a handle on the spread of the 
disease.
    For agriculture, chronic wasting disease posed difficult 
problems for the captive deer and elk farming industry. For 
resource managers, the disease posed grave consequences for the 
wild cervid population, as well as to communities across the 
United States whose economies depended on deer and elk hunting.
    In an all-out attack against the disease, tens of thousands 
of animals were destroyed. In the meantime, State wildlife 
management of budgets were quickly depleted as the demands of 
testing and eradication siphoned off millions of unbudgeted 
dollars. A perfect example: In just 2 years in Colorado, 
chronic wasting disease funding jumped from $700,000 to $4 
million.
    While there was never any doubt that the States retained 
undisputed primacy over wildlife, the economic and scientific 
demands forced them to turn to the Federal Government for 
assistance. The financial strain of management efforts, coupled 
with the unique scientific demands, assure a limited role for 
the Federal Government.
    Through the Department of Agriculture's emergency powers, 
millions of dollars were provided for culling and 
indemnification. The Animal and Plant Health Inspection 
Service, Agriculture Research Service, and the U.S. Geological 
Service reacted to the need for chronic wasting disease 
research and management funding through their yearly budget 
processes.
    As the level of involvement at Interior and Agriculture 
increased, it became quite clear that a coordinated plan was 
needed to prevent duplication of services and research, improve 
communication, and streamline Federal efforts with more 
direction. A task force convened and a plan emerged. 
Unfortunately, the plan has never been finalized, and no reason 
has been provided as to why it never reached final approval. 
The plan contained funding estimates and needs. To date, 
despite congressional mandates, the plan remains on the shelf 
collecting dust.
    Nor have the Agencies presented specific reasons to 
Congress that the efforts that they are undertaking and the 
funding that they are requesting are in line with the plan. 
Without a funding plan from the Federal Government, especially 
one that included grants for CWD research, monitoring, and 
control, the States continue to suffer financially.
    In two separate hearings before the House Resources 
Committee, State officials made it very clear that additional 
resources were needed regardless of the plan's status. As a 
result, I, along with Senators Campbell, Crapo, Feingold, and 
several other colleagues, introduced S. 1036 and S. 1366. S. 
1036 deals with the layers of Federal CWD responsibility and S. 
1366 deals with State and tribal funding for research, 
monitoring, and eradication of the disease.
    During this morning's testimony, I will be listening for 
ways to improve S. 1366 so that we can put in place a reliable 
funding mechanism that will allow the States an opportunity to 
secure the funding they need, while hopefully preventing a 
parade of congressional earmarks for CWD through the 
appropriations process.
    I also believe that S. 1366 is important because without it 
there is no incentive to keep money dedicated to chronic 
wasting disease. Your input and support of this bill is 
critical. The States desperately need assistance. We have 
waited far long enough to provide them with it.
    As we discuss various agency and departmental roles, I will 
also be listening for ways that the Government is implementing 
the yet-to-be-released CWD implementation plan. How are current 
plans aligning with the implementation strategy? Is money being 
spent as the plan suggested? How do budget requests reflect the 
suggested budget amounts in the implementation document? 
Through the task force, have the Agencies achieved a level of 
cooperation and communication needed in order to avoid 
duplication of services, responsibilities, and research?
    This hearing is also important because it provides a forum 
and platform for subject experts to provide the latest updates 
on CWD. How has the disease changed? Are monitoring efforts 
working? What does the best available science indicate about 
the continued spread and transmissibility of the disease? If 
CWD is more prominent in the buck, how does this impact the 
gene pool?
    Finally, this hearing is important because of the 
implications that CWD has on the economy. Colorado's resource-
based Western Slope was heavily dependent on deer and elk 
hunting, a $599 million industry to the region.
    Nationally, if chronic wasting disease were to become 
endemic it could create severe problems for game management and 
producers. It could potentially cost the national economy $100 
billion, according to Andrew Sidelin, associate professor at 
Colorado State University. A strong coordinated front against 
the disease will prevent a devastating blow to wildlife and the 
economy.
    Thank you, Mr. Chairman. I look forward to hearing from the 
witnesses and continuing to work with you.
    Senator Crapo. Thank you very much. We appreciate your 
attention to this issue, Senator Allard.
    [The prepared statement of Senator Allard follows:]
Statement of Hon. Wayne Allard, U.S. Senator from the State of Colorado
    In 1967, one year before I received my Doctorate of Veterinary 
Medicine at Colorado State University in Fort Collins, scientists just 
a few miles up the road were grappling with a strange new `wasting' 
disease that had decimated their deer population. The discovery 
launched researchers on the foothills campus into the field of prion 
research, a heretofore-unknown field of science about which, even 
today, little is known. Three decades later, tragically, Chronic 
Wasting Disease (CWD) was discovered outside the fences of the CSU 
campus, in both wild and captive cervid populations.
    As scientists worked to unravel the mystery of the folded protein, 
several States' departments of resources and agriculture scrambled to 
get a handle on the spread of the disease. For agriculture, CWD posed 
difficult problems for the captive deer and elk farming industry. For 
resource managers, the disease threatened grave consequences for the 
wild cervid population as well as for communities across the United 
States whose economies depend on deer and elk hunting. In an all-out 
attack against the disease, tens of thousands of animals were 
destroyed. In the meantime, State wildlife management budgets were 
quickly depleted as the demands of testing and eradication siphoned off 
millions of un-budgeted dollars. A perfect example: in just 2 years in 
Colorado, CWD funding jumped from $700,000 to $4 million.
    While there was never any doubt that the states retained undisputed 
primacy over wildlife, the economic and scientific demands forced them 
to turn to the Federal Government for assistance. The financial strain 
of management efforts coupled with the unique scientific demands assure 
a limited role for the Federal Government. Through the Department of 
Agriculture emergency powers, millions of dollars were provided for 
culling and indemnification. The Animal and Plant Health Inspection 
Service, Agriculture Research Service and the U.S. Geological Service, 
reacted to the need for CWD research and management funding through 
their yearly budget processes.
    As the level of involvement at Interior and Agriculture increased, 
it became quite clear that a coordinating plan was needed to prevent 
duplication of services and research, improve communication and 
streamline Federal efforts. A task force convened and a plan emerged. 
Unfortunately, the plan has never been finalized and no reason has been 
provided as to why it has never received final approval. The plan 
contained funding estimates and needs. To date, despite Congressional 
mandates, the plan remains on the shelf collecting dust. Nor have the 
agencies presented specific reasons to Congress that the efforts they 
are undertaking (and the funding they are requesting) are in line with 
the plan.
    Without a funding plan from the Federal Government--especially one 
that included grants for CWD research, monitoring and control--the 
States continued to suffer financially. In two separate hearings before 
the House Resources Committee, State officials made it very clear that 
additional resources were needed, regardless of the plan's status. As a 
result, I, along with Senators Campbell, Crapo, Feingold, and several 
other colleagues, introduced S. 1036 and S. 1366. S. 1036 deals with 
the layers of Federal CWD responsibility and S. 1366 deals with State 
and tribal funding for research, monitoring and eradication of the 
disease.
    During this morning's testimony, I will be listening for ways to 
improve S. 1366 so that we can put in place a reliable funding 
mechanism that will allow the States an opportunity to secure the 
funding they need, while I hope to prevent a parade of Congressional 
earmarks for CWD through the appropriations process. I also believe S. 
1366 is important because without it, there is no incentive to keep 
money dedicated to Chronic Wasting Disease. The States desperately need 
assistance and we have waited far long enough to provide them with it.
    This hearing is vitally important because of the impact CWD has on 
the economy. Colorado's resource-based western slope is heavily 
dependant on deer and elk hunting, a $599 million industry in the 
region. If Chronic Wasting Disease were to become endemic, it could 
create severe problems for game management and producers on a 
nationwide scale, potentially costing the U.S. $100 billion, according 
to Andrew Seidl, an associate professor at Colorado State University. A 
strong, coordinated front against the disease will prevent a 
devastating blow to wildlife and the economy.

    Senator Crapo. Our first panel today will be Dr. John 
Clifford, the Assistant Deputy Administrator of the National 
Animal Health Policy and Programs at the USDA, and Mr. Chip 
Groat, Director of the U.S. Geological Survey in Reston, VA.
    Gentlemen, and to the rest of the witnesses who will 
testify in our second panel, I want to remind you that we have 
a time clock. If you are like me and most other witnesses, the 
clock will run out before you have finished saying everything 
you have to say. I encourage you to pay attention to the clock, 
though, because we need to maintain our schedule.
    Senator Allard and I want to have an opportunity to engage 
in dialog with you. If you do not get through everything you 
wanted to say in your initial 5 minutes, you will have plenty 
of opportunity during the questions and answers to supplement 
what you have to say.
    Your written testimony has been entered in the record in 
its entirety. It has been reviewed thoroughly by us. We 
appreciate your summarizing it in the 5-minutes allotted for 
your initial presentation. If you do forget the clock, I will 
lightly rap the gavel up here to remind you to watch it and 
encourage you to wrap up as quickly as you can when your time 
does expire.
    With that, we will go ahead.
    Dr. Clifford, please proceed.

  STATEMENT OF JOHN CLIFFORD, ASSISTANT DEPUTY ADMINISTRATOR, 
NATIONAL ANIMAL HEALTH POLICY AND PROGRAMS, U.S. DEPARTMENT OF 
                  AGRICULTURE, WASHINGTON, DC

    Mr. Clifford. Thank you, Senator Crapo.
    Mr. Chairman and members of the subcommittee, thank you 
again for the opportunity to speak on behalf of USDA about 
chronic wasting disease. CWD is a transmissible spongiform 
encephalopathy of deer and elk, in the same family of disease 
as bovine spongiform encephalopathy and scrapie.
    It has been diagnosed in farmed elk and deer herds in eight 
States. CWD has also been identified in free-ranging deer and 
elk in areas of Colorado, Illinois, Nebraska, New Mexico, South 
Dakota, Utah, Wisconsin, and Wyoming. The origin and mode of 
transmission of CWD are unknown.
    To ensure a coordinated and cooperative Federal approach to 
assisting States, a task force, including USDA, the Department 
of the Interior, along with universities and State wildlife 
management and agricultural agencies, drafted the plan for 
assisting States, Federal agencies, and tribes in managing CWD 
in wild and captive cervids. The plan was shared with Congress 
in June 2002. The national plan's components include action 
items for surveillance, diagnostics, and research, among other 
things.
    All agencies have been working together as budgets allow to 
implement the plan. From fiscal year 2003 through fiscal year 
2005, the President's budget, Department funding for CWD has 
increased by 41 percent from $16.4 million to $23.1 million. In 
fiscal year 2004, USDA-APHIS received $18.5 million which, 
after congressional earmarks, is being divided roughly equally 
between the captive cervid program and assistance with 
addressing CWD in wild deer and elk.
    An additional $3.2 million was provided for USDA research 
activity in 2004 for a total of $21.7 million. The fiscal year 
2005 budget includes $23.1 million, of which $20.1 million is 
for APHIS, and $3 million is for research. However, funding 
decisions must be made on an annual basis, taking into 
consideration resource constraints and the many program needs 
that compete for these resources.
    In January, a working group, composed of many of the same 
people that put the national plan together held a progress 
meeting in St. Louis. This working group is currently compiling 
a CWD progress report. By examining each action item set forth 
in the national plan the progress report highlights 
accomplishments and further needs. In addition to working with 
other agencies on CWD, USDA is moving ahead to address CWD in 
both captive and wild deer and elk populations.
    We are continuing the development and implementations of 
its national voluntary certification program to eliminate CWD 
from farm cervids. On December 24, 2003, we published a 
proposed rule on the certification program. We received 120 
comments on those and are evaluating those comments now. We 
anticipate publishing a final rule soon with a goal of 
implementing the program by the end of this year.
    Our goal is nothing less than the eradication of the 
disease in the farm cervid population. We also are assisting 
tribes in dealing with the wildlife aspects of the disease. 
USDA plans to make approximately $5.75 million available to 
tribal nations and State wildlife agencies for this purpose.
    The funding will be distributed via cooperative agreements 
according to a formula initially developed in conjunction with 
the International Association of Fish and Wildlife Agencies and 
through a cooperative agreement with the Native American Fish 
and Wildlife Society, regional tribal biologists have also been 
hired to help improve CWD surveillance on tribal lands.
    Our Wildlife Service Program has been assisting State 
wildlife agencies with their activities. Our personnel have 
assisted with the harvesting of wild deer in Illinois and 
Wisconsin, and both deer and elk in Colorado for CWD testing. 
Additionally, we have assisted State wildlife agencies in 
collecting CWD samples from hunter-harvested deer at check 
stations in 10 States.
    Our Center for Veterinary Biologics continues to approve 
new diagnostic test kits for CWD. Currently, there are four 
tests that have been approved. These diagnostic test kits are 
only available to APHIS-approved laboratories contracted for 
CWD disease surveillance, and are only licensed for use in wild 
deer and elk.
    The immunohistochemistry remains the internationally 
recognized method of choice for testing for TSEs and is being 
used for confirmation of positives as well as surveillance in 
captive deer and elk.
    Research in the area of CWD has continued as well. Our 
National Wildlife Research Center is researching the 
possibility of CWD vaccines, as well as to identify improved 
barriers and repellents to keep wild deer and elk separated 
from captive herds and other livestock.
    Thank you, Mr. Chairman. I would ask that my complete 
testimony be included in the record in its entirety.
    Senator Crapo. Without objection, so ordered.
    Thank you very much. I see that you noticed the clock very 
carefully. We will pursue the rest of your testimony with you 
in questions and answers.
    Mr. Groat.

           STATEMENT OF CHARLES G. GROAT, DIRECTOR, 
               U.S. GEOLOGICAL SURVEY, RESTON, VA

    Mr. Groat. Thank you, Senator.
    It is a pleasure to be here to present some views of the 
Department of the Interior on your proposed legislation and on 
CWD in general. The Department continues to be concerned with 
the current and future effects of chronic wasting disease on 
free-ranging deer and elk, which is where the Department of the 
Interior's expertise is focused.
    We support strongly the concept embodied in these bills, 
particularly the recognition and facilitation of the key role 
that State wildlife management agencies, universities, and non-
governmental organizations play in the struggle with the 
disease.
    While we recognize that States, particularly, and others 
have a preeminent role, we also recognize, as do they, to 
successfully combat CWD is going to take a joint effort and a 
collaborative approach among the States, Federal agencies, 
universities, and other organizations. Using this approach, the 
Department of the Interior is conducting research into the 
biology and management of the disease. We provide wildlife-
related laboratory services. We offer technical advice and 
assistance to the partners. We work closely in cooperation with 
the States.
    In fiscal year 2004, the Department of the Interior has 
committed $4 million, which is up from $3 million, to 
investigate and combat the chronic wasting disease. These funds 
were used by the USGS and to expand research and deliver 
technical assistance and pertinent biological information about 
the disease to both Federal agencies and the States.
    Over the past year, the Department has embarked on an 
aggressive program of research into the biology of CWD, its 
hosts, and its transmission pathways. In addition, the USGS and 
its partners are working to develop methods needed to identify 
diseased animals before the designs of the disease are 
apparent.
    During fiscal years 2000 and 2004, the USGS committed a 
total of $2.7 million to the Chronic Wasting Disease Program. 
The Fish and Wildlife Service has been assisting the States in 
CWD monitoring and surveillance, a key part of the program, as 
it develops field guidelines at a national level for 
coordinated monitoring and surveillance. These guidelines are 
being designed collaboratively with the States to help 
determine CWD distribution and movement.
    As an example of the commitment to cooperate with the 
States, USGS has recently developed a program to work 
cooperatively with six States affected with CWD--Colorado, 
Wisconsin, Wyoming, Nebraska, South Dakota, and Utah. The 
$300,000 has helped to initiate projects that will develop 
crucial information on issues ranging from deer movements and 
the ecology of therapeutic agents.
    In December 2002, we coordinated an effort with State, 
Federal, and university partners to develop a strategy to 
assist in the development of surveillance programs. This 
document, ``Surveillance Strategies for Detecting Chronic 
Wasting Disease in Free-Ranging Deer and Elk'' represents 
another important part of the cooperative effort.
    Let me close with some comments, as did Dr. Clifford, on 
the status of the plans and proposed legislation. I concur with 
what Dr. Clifford said about the implementation program. While, 
as you pointed out, Senator Allard, that program sits on a 
shelf somewhere as far as formal approval, the review that took 
place with the States and Federal partners does do a decent job 
of portraying where things are because we have not sat still 
and waited for that plan to be approved.
    We have moved within available funding to carry out the key 
elements of that plan. I think you will find when that progress 
report is released, some very useful information in terms of 
the effort on each part, as well as the dollars that are needed 
to carry out the efforts that the plan portrays.
    Both pieces of legislation that you referenced include 
grant structure which, to some degree, does duplicate 
structural capabilities already existing at least in the 
Department of the Interior. However, the funding is, in any 
grant program whether it is new or old, a key part of getting 
this work done.
    As Dr. Clifford pointed out, the efforts that are ongoing 
have had a significant commitment of funding in the Department 
of Agriculture and, to a degree, we have funds available as 
well. But I think we would both concur that more funding is 
going to be needed to carry that out.
    We think the concepts of the legislation are sound. What 
you have intended the money to support are sound. We are 
particularly supportive of the modeling program in S. 1036. I 
think that is going to be a key part of understanding the 
patterns and migration of the disease, and also the development 
of a national data repository so we can all share in 
information about the disease among State and Federal agencies.
    Finally, you said a key word, Senator Allard, and I think 
we say it often in connection with CWD, and that is 
``unknown.'' We know so little about this disease. We know very 
little about how the disease itself works and the work that 
Agriculture is doing on the nature of the disease and its 
characteristics is critical, but also the ecology of the 
disease, as it relates to free-ranging herds.
    The natural environment and its impacts, the transmittal of 
the disease, mechanisms and patterns, the habitat effects, the 
life cycle and early detection are all things in which much 
more work is needed. Many people are working very hard on it. 
We have a long way to go, Senator. I do not think there will be 
any quick fix. Unless the kind of sustained efforts that you 
support in your legislation are there, we will not get there.
    So we endorse the concepts the legislation put forward. We 
look forward to continuing the collaborative effort among 
States, Federal agencies, and NGO's to deal with this tragic 
disease.
    Thank you. I would ask that my complete testimony be 
included in the record in its entirety.
    Senator Crapo. Without objection, so ordered.
    Thank you very much, Mr. Groat.
    I will ask a couple of questions first before turning it 
over to Senator Allard.
    This is to either of the two of you. Explain to me in a 
little more detail the difference between the national plan, 
which was presented to Congress in June 2002, and the 
implementation document which was dated October 2002.
    Mr. Groat. I will make one comment, Senator. The progress 
plan that was referred to tracks the actual plan itself. It is, 
in effect, to see how implementation is proceeding along each 
of the elements. There are discrete parts of that plan. So it 
does report efforts and dollars that are currently being spent.
    Senator Crapo. That is the implementation document?
    Mr. Clifford. Yes, I would concur with Mr. Groat on that. 
That is exactly what we are doing.
    Senator Crapo. So basically you are just tracking the 
national plan step-by-step to assure its implementation?
    Mr. Clifford. There may be some variations because APHIS 
had initially already started before this activity started with 
the captive cervid program. So that program and those dollars 
both track that plan. We spend about half our dollars on that 
and half on the wildlife. There may be small variations in 
that.
    Senator Allard. Mr. Chairman, he used ``captive cervid 
program.'' Are you talking just about farming cervids or are 
you talking about cervids that are also used in research?
    They are also captive. Is there a distinction?
    Mr. Clifford. I am talking about farm cervids.
    Senator Allard. OK.
    Senator Crapo. How closely, and again to either of you, has 
the Administration's budget followed the budget in the 
implementation plan? In other words, has the Administration 
provided the necessary budget dollars that the plan 
contemplates?
    Mr. Clifford. In my opinion, it follows it pretty close.
    Mr. Groat. I would say in our part the money that we spend 
tracks the needs in the plan as far as the Department of the 
Interior has capabilities to do them. On the other hand, I saw 
a draft of the plan which talked about a total need over 3 
years of something over $100 million to support the effort. Of 
course, we are not coming anywhere close as far as the amounts 
of money that they feel are necessary.
    Senator Crapo. Thank you.
    Senator Allard.
    Senator Allard. On the finalization of the plan, why hasn't 
OMB finalized it? I want to be clear on that. It is sitting 
over there in OMB; is that not the understanding?
    Mr. Clifford. I do not know that I can speak to that, 
Senator.
    Mr. Groat. That is my understanding, Senator. I think 
because it involves both Federal and State agencies, and 
because it is Federal involved, the OMB is taking a look at it. 
I am not sure what the reasons are for where it is.
    Senator Allard. It involves both agencies. Have they come 
and ask you about input or anything like that?
    Mr. Clifford. There have been questions that we have 
responded to, yes, to OMB.
    Mr. Groat. There have been questions to the Budget Office.
    Senator Allard. Are there differences between the two 
agencies? Is that why OMB cannot act on it?
    Mr. Clifford. I do not know, Senator; not that I know of.
    Mr. Groat. I do not either, Senator. I cannot respond to 
that.
    Senator Allard. As far as you know, you do not differ on 
any of the issues that would be in that plan?
    Mr. Clifford. No, sir.
    Senator Allard. OK.
    Mr. Clifford. We were all at the table to help put it 
together.
    Senator Allard. OK. On APHIS and the Department of 
Agriculture and what not, there is a veterinary role ordinarily 
when animals are shipped interstate.
    Mr. Clifford. Yes, sir.
    Senator Allard. There are health certificates that a 
private practitioner would write. When we fill out that health 
certificate, we become an agent for the state of origin. Do 
many States require health certificates on farm cervid?
    Mr. Clifford. Yes, sir; they do. A number of the States do.
    Senator Allard. Is there an exemption on research cervid, 
or do those same rules and regulations apply to research 
cervid?
    Mr. Clifford. There can be certain exemptions. As far as 
interstate movement, then that would be coordinated with both 
the receiving State as well as the State that is moving. Plus, 
we would have to meet the Federal requirements as well.
    Senator Allard. But a health certificate is not necessarily 
required on a research cervid?
    Mr. Clifford. It would probably move on a health 
certificate, Senator.
    Senator Allard. The fish and wildlife agencies do move 
cervids around some; I would assume?
    Mr. Groat. Are you talking about the State agencies,
    Senator Senator Allard. Yes.
    Mr. Groat. I am not certain of how they would do that.
    Senator Allard. I would assume they would. When you move 
your cervids around, are you required to have a health 
certificate? How do you know the animals are healthy when you 
move them around? That is my question, basically.
    Mr. Groat. From the Department of the Interior's 
perspective, I am not sure I know the answer to that, Senator.
    Perhaps one of the State people on the next panel could 
answer that.
    Senator Allard. OK. Maybe it is something that needs to be 
checked out.
    States that do not have chronic wasting disease within 
their borders, how are these States been notified there is a 
problem? I notice Idaho did not get mentioned and they have a 
pretty viable deer and elk population in that State. Have 
States like Idaho put provisions in their animal import rules 
that would say, ``Well, if you are coming from a state of 
origin, you need to have a health certificate'' because if a 
veterinarian, for example, wrote a health certificate in 
Colorado, I would look at Idaho's regulations. If they do not 
say a health certificate is required on a cervid, I would say, 
``Well, there is no requirement. Go ahead and just transport 
it.''
    Mr. Clifford. Senator Allard, the new regulation that we 
will be implementing soon will address the issue for captive as 
well as wild cervids. Wild cervids from known endemic areas 
would not be able to be moved to interstate commerce.
    Senator Allard. That is my question. Very good. OK.
    On the funding for the chronic wasting disease, in the 
Department of Agriculture you are doing much of the research, 
basically? Right? I am just trying to figure in my mind how 
this breaks down between the Agencies.
    Mr. Clifford. Yes, sir. The USGS as well as doing research.
    Senator Allard. They are doing some research. But I would 
think most of the research coordination would be through your 
Agency. They would be more on surveillance of wildlife, and 
what not. For example, in Colorado we have certain areas where 
we require head collections from hunters. Then you go ahead and 
test the head. Then we get the report back within a relatively 
short period of time. It has been shorter here lately. But it 
has been an issue because hunters do not like to sit around and 
wait for days and days to get results. They like to have the 
results very quickly.
    Is that how that is breaking down between the Fish and 
Wildlife and the Department of Agriculture?
    Mr. Groat. Well, from the Fish and Wildlife Service, 
Geological Survey prospect, we do focus on issues related to 
free-ranging herds. So, for example, the life cycle of the 
disease, what are possible hosts and paths of transmission in 
the natural environment related to wildlife population. So we 
parallel some of the things that are going on in Agriculture, 
but specifically as it applies to free-ranging populations.
    Senator Allard. OK. I think surveillance would be an 
important issue as far as you are concerned.
    Mr. Groat. Certainly.
    Senator Allard. And working with the State Fish and 
Wildlife agency would be important. Do you do any surveillance?
    Mr. Clifford. Senator Allard, half of our budget goes to 
surveillance activities to the States for wildlife 
surveillance.
    Senator Allard. Is there duplication on the surveillance?
    Mr. Clifford. No, sir.
    Senator Allard. You just do surveillance on domestic herds 
and they would on the wild herds?
    Mr. Clifford. We focus on both, sir. Half of our budget is 
that we coordinate with the International Association of Fish 
and Wildlife Agencies and develop cooperative agreements with 
the State natural resource agency and provide dollars for them 
for the surveillance in the wild cervid industry. We also 
support that through laboratory testing as well. So over half 
of our dollars go to that. There is no duplication on the side 
of Interior and USDA on those issues.
    Senator Allard. As far as research is concerned, the only 
area where it seems like we have made much progress is this. 
How is it that you dispose of infected tissues or potentially 
infected tissues? I know that the Colorado State University has 
developed a digester system that apparently is pretty effective 
in eliminating prions and what not, from what I have been told. 
There has been some research, but other than that we are not 
finding out much about method of transmissibility or much about 
the disease other than just that. Maybe that should be the 
first priority.
    Where do you think we are going to go from here now as far 
as research is concerned?
    Mr. Clifford. Well, ARS, plus our Wildlife Services 
Division are both doing research in this area. ARS is looking 
at the pathogenicity of the disease. Hopefully we can make 
progress on that area soon. I mean, that is definitely what is 
needed with regard to disposal. We have three disposal methods 
that will vary from State to State. We are working with EPA and 
others on the approval of three, that is, approved land fills, 
incineration, and the tissue digesters.
    Senator Allard. From any evidence that you have gained so 
far, there is no evidence of transmissibility between species 
of the transmissible spongiform encephalopathies; is that 
correct?
    Mr. Clifford. Are you including them all?
    Senator Allard. Yes. Well, I guess the one exception would 
be BSE in humans.
    Mr. Clifford. Yes, in humans in the European population. I 
think that is important to make that distinction. Just in the 
European population.
    Mr. Clifford. Yes, correct.
    Senator Allard. We have had testimony that it is a little 
different variety. Other than for that, as far as you know, 
there is no transmissibility between species?
    Mr. Clifford. As far as scrapie, no, and as far as chronic 
wasting disease, not to our knowledge at this time.
    Senator Allard. Very good.
    Mr. Groat. Senator, I think one of the biggest challenges 
in the natural environment is understanding the pathways of the 
disease, the residence in soils, the residence in intermediate 
hosts, and the methods of transmittal. Other than brute force 
inoculations in the brains, it has been very difficult to see 
those patterns develop and what causes those patterns.
    As I said earlier, I think we have a long way to go, but we 
have to get there if we are going to understand this disease.
    Senator Allard. I agree. I think there needs to be much 
research on the nature of the prion. We just do not know.
    Mr. Chairman, I think my time has expired. I have more 
questions, but I will turn back.
    Senator Crapo. Well, I will ask another couple of questions 
and then we can have another round if you have more questions.
    Senator Allard. All right.
    Senator Crapo. Dr. Clifford, in your testimony, you 
indicated with regard to S. 1366 that because the Department is 
already administering funds essentially in the way that the 
bill implies it should be done, that the legislation is not 
necessary. Could you elaborate on that a little bit?
    Mr. Clifford. Basically, as I stated earlier, we are 
working through IAFWA to provide funds to the States for the 
surveillance activities now in the wildlife components. That is 
already being done through APHIS-USDA.
    Senator Crapo. So rather than establishing a new grants 
program, basically the solution that we need is simply to have 
higher appropriations of dollars for these purposes to the 
Agency? Is that basically the position you take?
    Mr. Clifford. Well, yes. The President's budget had an 
increase for 2005 of $1.4 million; yes.
    Senator Allard. Can I followup on that a little bit, Mr. 
Chairman?
    Senator Crapo. Certainly.
    Senator Allard. So you say you already have a program now 
where you can bring money into research for chronic wasting 
disease. But it is pretty much left up to the discretion of the 
Agency. If we had authorizing legislation, it would set up a 
line item, and then when the money got appropriated, it would 
be more apt to be allocated just for chronic wasting disease 
and you would not have the discretion in the Agency. That is 
basically the difference; correct? Did I go through that too 
fast?
    Mr. Clifford. Well, I mean we utilize all this money from 
chronic wasting disease, Senator. So I am not sure----
    Senator Allard. Oh, I have no doubt that you do. But you 
pull it out of a general pot of money that you have available; 
right? It is available for your research?
    Mr. Clifford. No, sir; this is a line item.
    Senator Allard. It is a line item that specifically says 
for chronic wasting disease in your Department?
    Mr. Clifford. Yes, sir; CWD.
    Senator Allard. Is that true in the Department of the 
Interior?
    Mr. Clifford. No, sir. Our granting mechanisms are more 
general than that. So the mechanisms are there but they are not 
specifically for chronic wasting disease.
    Senator Allard. So as far as the Agriculture budget is 
concerned, that is line itemed. You take a little different 
approach. Now, on the Department of the Interior, then, it is 
not line itemed and that money is a little more fungible as far 
as the Department is concerned.
    Mr. Groat. It is to some degree. In our research budget, 
for example, there is chronic wasting disease research spelled 
out as a line. That is pretty clear. But as far as the granting 
mechanisms is concerned, that is discretionary within the money 
made available.
    Senator Crapo. Mr. Groat, those grant mechanisms are 
administered through the Fish and Wildlife Service; is that 
correct?
    Mr. Groat. The principal ones are, although the USGS, 
through cooperative agreements, has provided money to State 
agencies and universities for research using that mechanism. 
But the principal means of getting support to the States for 
this purpose is through the Fish and Wildlife Service, yes.
    Senator Crapo. Well, I note that in your testimony as well, 
you indicate that the grant programs authorized by S. 1366 
appear to be duplicative of that which the Fish and Wildlife 
Service already administers. I will followup on what Senator 
Allard was proposing here.
    If the legislation were enacted such that there were 
specific line item appropriation dollars for these purposes, 
would that assist in making certain that we had the adequate 
resources to the grant programs, or do you have any problem 
getting those resources there now?
    Mr. Groat. Well, to be honest, Senator, I think any grant 
program is subject to what the most important issues of the day 
are, and they might change. So there is no guarantee that 
existing grant mechanisms or contract mechanisms would focus on 
chronic wasting disease.
    On the other hand, the statement I made about the existing 
mechanisms were just that they were there. I was not intending 
to imply that they were there and were already doing in a 
regular way what you are intending to do with the bill, which 
is to make sure that money goes specifically for chronic 
wasting disease.
    I think some other aspects of the legislation does do a 
good job, as we said, and support the idea of pointing out 
needs that are there, for example, modeling programs, national 
information systems, and those sorts of things that the bill 
would empower that are not currently spelled out in anything 
that is legislatively enacted.
    On the other hand, the implementation plan does point out 
those things as major elements. If we, being the Federal 
Agencies, and the States follow that plan, then we will be 
doing the right thing. The question is: Will the money be going 
in the right place to get it done? I think that is one of the 
things that you are trying to address.
    Senator Crapo. In that regard, again in your testimony you 
indicate that the USGS is already developing a prototype 
wildlife disease information network that will include a CWD 
national data repository for scientific, technical, and 
geospatial information.
    S. 1036 contemplates the establishment of modeling, 
surveillance and monitoring programs as a national internet-
based repository of information.
    Are we duplicating in S. 1036 or is S. 1036 going to be 
able to supplement and strengthen the efforts of USGS?
    Mr. Groat. Senator, I do not think it is duplicating. I 
think what it is doing, and I think it is good news, is that it 
is recognizing the importance of that activity. So some of the 
things that we have started through our NBII program, for 
example, and some of the discussions that we have had with 
Agriculture and with the States about the need for the national 
modeling surveillance and then the information system is 
something we are all in agreement on. This legislation points 
out the importance of that and would have the effect of 
empowering something that is already underway.
    So is it duplicative in fact that something is already 
going on? Yes, but it gives it some incentive to proceed.
    Senator Crapo. Thank you. Dr. Clifford, do you agree?
    Mr. Clifford. Yes, within USDA we have our own data base 
system where we collect data and information that is already 
there from a domestic disease standpoint. We typically do not 
collect and keep that much data on the wildlife side. We 
definitely agree that this would not be duplicative.
    We would add summary data from our generic data base to the 
USGS data base on the captive side.
    Senator Crapo. Thank you. That concludes my questions.
    Senator Allard, do you have further questions?
    Senator Allard. Yes, I do. Thank you, Mr. Chairman.
    I guess we need to ask you both just this one basic 
question.
    Do both of you support S. 1036 and S. 1366, as currently 
drafted?
    Mr. Clifford. For S. 1366, on the USDA side, as we stated 
in our testimony, we already have the things in place with 
regard to the funding for the States on the wildlife 
surveillance.
    With the other bill, again I think we already have the 
authorities we need to be able to carry out this program.
    Senator Allard. So you do not think they are necessary?
    Mr. Clifford. No, sir.
    Senator Allard. What about you, Mr. Groat?
    Mr. Groat. Senator, I think the Department's position was 
more specifically aimed at the funding mechanisms, feeling that 
those could be used to accomplish what you are intending to 
carry out with the bill. There was no position taken on whether 
the other aspects that you are pointing out need to be done, 
and were unnecessary as such.
    So the Department did not take a position in opposition to 
the bill in any way. We support the concept. We just felt that 
there was some duplication through the funding mechanism.
    Senator Allard. OK. Are there some suggestions on improving 
the legislation that you might make?
    Mr. Groat. Well, I think the degree to which the 
legislation can reflect upon the implementation plan and the 
progress that has been made as a way of updating it would be 
helpful. Not knowing what that final progress report is going 
to say, I could not tell you what that is, but I think the 
progress report does detail that there are things being done 
along the lines that your bill indicates. There may be some 
things you may want to add or even modify based on that because 
that does truly reflect how the whole community feels--State, 
Federal, and NGO's.
    Senator Allard. OK. I think it was you, Dr. Clifford, who 
talked about some budget figures. You said $20.1 million; is 
that what you have in your budget?
    Mr. Clifford. Yes, sir.
    Senator Allard. Is that for surveillance? Is that what that 
is for?
    Mr. Clifford. That is for both the surveillance and the 
wildlife, as well as the captive program.
    Senator Allard. So when you say ``surveillance in the 
wildlife,'' is that surveillance in farm cervids?
    Mr. Clifford. No, sir.
    Senator Allard. It is the whole ball of wax?
    Mr. Clifford. About half of that money, about half of that 
$20 million would be used for wildlife surveillance, not 
captive, not farm raised, but the wildlife.
    Senator Allard. Now they are doing surveillance over here 
in the fish and wildlife in the wild. Is there a duplication 
between that surveillance function and the surveillance 
function that is happening over there?
    Mr. Clifford. I do not know how much money that DOI gives 
to the States to support actual surveillance activities. Half 
of our budget goes directly to the States through cooperative 
agreements and through support at the laboratories for the 
actual test and doing the actual surveillance of wildlife, 
which is not untypical for USDA with regards to wildlife 
components and other diseases as well.
    Senator Allard. The surveillance on the Interior Fish and 
Wildlife side, that is for your own personal surveillance and 
is not necessarily grants to the States for them to do 
surveillance; do I have that right?
    Mr. Groat. There is funding that goes to the States to 
support, as we did with the handbook, development of 
surveillance processes and techniques. So included in money 
going to the States is money for that.
    Senator Allard. So it is the development of process and 
techniques. Basically it is research related to surveillance 
procedures?
    Mr. Groat. We are focusing more on that; yes, sir.
    Senator Allard. So then most of the money at the Department 
of Agriculture on that goes to the States.
    You have $3 million out of your budget that goes to 
research?
    Mr. Clifford. Yes, sir.
    Senator Allard. And how much out of yours?
    Mr. Groat. Our total funding in 2004 for chronic wasting 
disease in the Department of the Interior was $4 million. Of 
that, $1.3 million that the U.S. Geological Survey spends is 
for research. So that is not the maximum because some of the 
other goes to aspects that are research, but it is a small 
amount.
    Senator Allard. Between both of you, that is about $4.2 
million for research. Is that adequate?
    Mr. Groat. I come from a research organization, Senator, 
and research organizations are never allowed to say it is 
adequate. There is always more work that needs to be done.
    [Laughter.]
    Mr. Groat. But as I said earlier, I think the unknowns of 
this disease are so critical and so important that one way to 
accelerate progress is for more money and another is to have 
the teams work together as effectively as possible. So I think 
more of both is needed.
    Senator Allard. Well, how much research in the Department 
of Agriculture is going on for just prion diseases, like 
scrapie, and mad cow disease. We really cannot do mad cow 
disease in the United States unless we do it at Plum Island, I 
suppose. There are cases of scrapie in the States?
    Mr. Clifford. Yes, there is.
    Senator Allard. So I assume that kind of prion research 
gets done here on the mainland.
    Mr. Clifford. Yes.
    Senator Allard. Would you make a comment on prion research 
and the Department of Agriculture? Does that duplicate in with 
what we are talking about here?
    Mr. Clifford. Senator Allard, if I may, could I ask Dr. Rob 
Becker to respond to that for you, sir? He is from the 
Agriculture Research Service.
    Senator Allard. OK.
    Mr. Becker. Senator, we do have research programs in all of 
those areas, TSEs, and as you know, they do overlap with each 
other. Not that we completely understand how they 
differentiate, but scrapie does lend to our understanding 
somewhat of chronic wasting disease. As you pointed out, TSE is 
related; however we have not done any research on that in the 
United States at the moment. We are starting to do that.
    The little bit of moneys that we do have for that are sent 
overseas for research in England. So we do learn one from the 
other, although they are different from each other. I am not 
implying that they are the same. So our program, in that we 
have so much money for it, is helpful in that we can learn from 
one disease and extrapolate to some extent to the other. But 
certainly we need to do more research, as has been pointed out, 
for chronic wasting disease specifically.
    Senator Allard. It just seems to me that the $4.2 million 
is rather meager concerning the implications of chronic wasting 
disease on wildlife and management. We need to do surveillance. 
That is an important part of it. I am pleased that you have the 
States coming in and doing it and helping out.
    But I hope that there is communication. It sounds as though 
you are talking. That is always heartening as far as your 
research efforts and what not are concerned. When you have such 
meager resources, you have to be careful that you do not do 
duplication, although when you have a young disease like this, 
or a relatively new disease, it is very hard to know what is 
duplicative because you do not have much information out there.
    I would encourage you to work with that.
    Mr. Groat. Senator, I think that as with any understood 
process or phenomenon, as is true in most research, the more 
people that are working on it with capabilities, the more 
likely we are to make progress. I think that is true in health. 
that is true in many areas.
    So I do not think the duplication at this level of funding 
is a real issue. I think it is getting everybody with 
capabilities engaged.
    Senator Allard. Dr. Clifford, I have one final question. 
What percentage of the money that you get goes to the States in 
the form of grants for surveillance and research? Do you have 
that figure?
    Mr. Clifford. Yes, sir. For 2003, I think it was $18 
million that we received. I am sorry, Senator. For 2004, it is 
$5.75 million of the $18 million will go directly to the States 
and tribal nations in forms of cooperative agreements.
    Senator Allard. I do not know if you were the one who made 
the testimony, but I think there was testimony from the USDA on 
the House side that said: ``We now have 26 laboratories that 
can run the IHC test.''
    Mr. Clifford. Yes.
    Senator Allard. ``The estimated capacity is now at a 
quarter of a million samples, more than adequate to meet the 
current demand.'' Is that still true today?
    Mr. Clifford. Yes, sir; it is.
    Senator Allard. It sounds like you almost have surplus 
there. If fish and wildlife needs more testing, and if you have 
more than enough money, is there a way of making it available 
to fish and wildlife agencies, maybe at the State level, so 
that they can do their testing programs? Is there a way that 
that happens or can happen?
    Mr. Clifford. I am not sure I understand. When you say 
there is ``surplus''----
    Senator Allard. Well, the testimony said there was plenty 
of money for testing for your 26 laboratories.
    Mr. Clifford. What we are saying is that we have that 
capacity. We are not saying that we have extra money. We have 
the capacity to do that. Those are contract laboratories within 
the State and Federal systems.
    Senator Allard. Oh, OK. I see.
    Mr. Clifford. So for every test that they do, we pay them a 
certain amount for each test.
    Senator Allard. So that States are happy that you have the 
capability to test their samples in a timely way?
    Mr. Clifford. Correct, yes; yes, sir.
    Senator Allard. If it is not timely, it's just because it 
takes that long to take the test, not because of a backlog?
    Mr. Clifford. That is correct, plus we have the other four 
tests that are more rapid that have come on line for cervids as 
well.
    Also, if I may, sir; of the $18.5 million, there was some 
earmarked money also for some of the States in that. So it 
would actually be $5.75 of something like $16.75 million that 
would go directly to the States.
    Senator Allard. Thank you.
    Thank you, Mr. Chairman.
    Senator Crapo. All right. Thank you very much. We would 
like to thank this panel for your testimony and for the 
information that you have provided to us. This panel will be 
excused.
    We will call our second panel. Our second panel is composed 
of Russell George, executive director, Colorado Department of 
Natural Resources; Gary Taylor, legislative director, 
International Association of Fish and Wildlife Agencies; Jack 
Walther, president, American Veterinary Medical Association; 
and Gary Wolfe, project leader, Chronic Wasting Disease 
Alliance.
    Gentlemen, we welcome all of you, and appreciate your 
appearance before us today. I would like to remind each of you 
of the instructions I gave earlier with regard to trying to 
keep your eye on the clock so that we have plenty of time for 
questions and answers and a dialog among ourselves.
    With that, let us proceed with you, Mr. George.

   STATEMENT OF RUSSELL GEORGE, EXECUTIVE DIRECTOR, COLORADO 
        DEPARTMENT OF NATURAL RESOURCES, WASHINGTON, DC

    Mr. George. Thank you, Mr. Chairman and Senator Allard.
    I listened closely to your opening statements and 
subscribed totally to the summary that each of you have given 
us about this increasingly larger and more complex scientific 
issue. Thank you for the opportunity to be here today. My goal 
will be to bring you current on where Colorado is on these 
number of issues.
    Prior to 2002, we in Colorado believed with some confidence 
that chronic wasting disease was confined to populations of 
wild deer and elk in the Northeastern portion of the State. As 
we all now know, unfortunately, 2 years ago we detected the 
disease in deer and elk herds in Colorado's Western Slope, and 
those are the largest deer and elk herds in the West.
    This required us to significantly expand our surveillance 
and customer service efforts, all at considerable expense. 
Since that time, chronic wasting disease has regrettably been 
detected in several other States as well. In response, Colorado 
has willingly shared its experiences with wildlife officials 
from those States in order to help them eradicate, combat, as 
well as to try to understand better this wildlife disease.
    As a result, the knowledge that we have gained, and the 
programs we have initiated in Colorado are often used as a 
model by others. I am pleased that the pioneering CWD work done 
in Colorado and Wyoming have allowed other States to save 
scarce funds and limited personnel time by enabling them to 
focus on initiatives, technologies, and approaches that we have 
already determined to be effective.
    Colorado has invested heavily in tackling the challenge of 
CWD, and we have done so largely with State funds, primarily 
revenues derived from the sale of hunting licenses. Congress 
and Federal agencies have an important role to play in 
providing additional support to help the States fight this 
disease.
    I recommend that the Federal role should focus heavily on 
contributing additional funding to State efforts delivered 
through already existing mechanisms and agencies. Earlier 
congressional initiatives on chronic wasting disease, including 
legislation, direction to Federal agencies, and critically 
needed funding have been helpful to many States.
    I am also pleased to report that those efforts have 
recognized the primacy of the States in policymaking authority 
with regard to wildlife management, both in general terms and 
specifically with respect to chronic wasting disease. I thank 
you for that. The recognition of primacy remains critically 
important to the States.
    We have used a screening technique now, the rapid screen 
test, to test more than 45,000 wild deer and elk for chronic 
wasting disease over the last two hunting seasons. Two years 
ago, it took 3 to 6 months for hunters to obtain the results of 
their test. This past hunting season we had that down to 2 
weeks. That is critical for customer service. That is critical 
for the science because that reporting gives us a data base 
that we can share and work from across the Nation.
    Despite the unprecedented actions taken by the State of 
Colorado and other States, it is clear much more work remains 
to be done. The needs of the Colorado Division of Wildlife, the 
Colorado Department of Agriculture, and Colorado State 
University are extensive and beyond the ability of our State to 
fully fund the loan.
    We believe Federal funding for this work is a wise 
investment, not only for the wildlife resource, but for the 
thousands of jobs dependent on wildlife recreation. In Colorado 
alone we estimate that three-quarters of a billion dollars in 
economic activity is generated from hunting annually. This 
activity is especially important to rural towns and businesses.
    I would like to emphasize that there are many opportunities 
for the Federal Government to assist States in chronic wasting 
disease management research. I urge congressional support for 
legislation and funding that will allow State wildlife agencies 
to fight the disease. I urge you to provide that assistance 
through the most streamlined and efficient mechanisms 
available, and particularly already established grant programs 
in both the Department of Agriculture and the Department of the 
Interior.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions you may have. I would ask that my complete testimony 
be included in the record in its entirety.
    Senator Crapo. Without objection, so ordered.
    Thank you very much, Mr. George.
    Mr. Taylor.

 STATEMENT OF GARY TAYLOR, LEGISLATIVE DIRECTOR, INTERNATIONAL 
  ASSOCIATION OF FISH AND WILDLIFE AGENCIES, WASHINGTON, DC; 
  ACCOMPANIED BY TOM THORNE, CHAIR, FISH AND WILDLIFE HEALTH 
    SUBCOMMITTEE ON CHRONIC WASTING DISEASE, INTERNATIONAL 
           ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Taylor. Thank you, Mr. Chairman, and Senator Allard, 
for the opportunity to share the Association's perspectives 
with you. With me today is Dr. Tom Thorne, a wildlife 
veterinarian with the Wyoming Game and Fish Department who also 
chairs our Association's Fish and Wildlife Health Chronic 
Wasting Disease Subcommittee.
    As you know, all 50 State fish and wildlife agencies are 
members of our Association. The Association looks forward to 
continuing to work with you in particular to provide the State 
and Federal agencies with the fiscal resources that they need 
to manage this disease.
    In my remarks today, I will also share with you some 
information regarding the progress of chronic wasting disease 
management, as outlined in the implementation strategy deriving 
from the national plan. Federal and State agencies involved in 
this endeavor concur that collectively all the authorities that 
are necessary to manage this disease currently exist in law.
    While we, therefore, are not convinced of the need for 
further authorizing legislation, the Association commends you 
and Senator Allard, Senator Feingold, and others for their 
diligence in ensuring that a coordinated State/Federal effort 
is directed at this issue.
    What is most needed, as other speakers have mentioned, are 
adequate congressional appropriations to Federal agencies for 
both their efforts and to pass through to the State fish and 
wildlife agencies, State Departments of Agriculture, State 
universities, and other agencies to manage chronic wasting 
disease. We look forward to working with you to increase 
appropriations for this purpose.
    My written statement describes the development of the 
national plan and the implementation strategy so I will not 
repeat any of that here. But let me simply observe that the 
budget recommendations that are reflected in the implementation 
strategy were very thoughtfully constructed under the 
constraint of reasonable and realistic. They are not ``pie in 
the sky'' requests.
    I would like to thank Bobby Acord and his staff at APHIS 
for making funds available, as Dr. Clifford described to you, 
in fiscal year 2003 and anticipated in 2004, and for enlisting 
the State fish and wildlife agencies through our Association in 
designing an equitable protocol for the distribution 
expeditiously of this money to the State fish and wildlife 
agencies through cooperative agreements.
    On the issue of funding, Mr. Chairman, we all agree that 
more is needed and we are committed to working with you and 
Congress to make that happen. With respect to fiscal year 2005, 
the Association and its member State fish and wildlife 
agencies, are requesting a total of $19.2 million through 
appropriation to USDA-APHIS which would subsequently be granted 
to the State fish and wildlife agencies for managing chronic 
wasting disease in free-ranging cervids. This would bring the 
total in the President's request up to $29.2 million. It is 
approximately $10 million more than is in the President's 
budget request for this line item.
    The President's budget request is approximately $19.5 
million, half of which, as Dr. Clifford indicated, would likely 
go to management of chronic wasting disease in captive cervids. 
We are advocating for an additional $10 million to be provided 
to the State fish and wildlife agencies for managing this 
disease in free-ranging cervids.
    Let me share with you a little bit of some of the 
perspectives and information that was compiled in the progress 
report that both Dr. Clifford and Mr. Groat mentioned to you. 
This reflects work that has been done collectively by the State 
and Federal agencies from the period of October 2002 to 
September 2003. I believe we have seen considerable progress in 
research, surveillance, management, and information 
dissemination concerning this disease, but as all three 
speakers preceding me have indicated, significant additional 
work needs to be accomplished.
    The implementation strategy identified budget needs of 
approximately $108 million over a 3-year period. While a 
significant portion of these funds are expected to be 
congressional appropriations, State and tribal agencies have 
considerable financial commitment in managing this disease.
    Let me share with you some expenditures from the first 
year's effort that reflect that commitment. First of all, from 
the Federal agencies in fiscal year 2003, USDA agencies 
expended approximately $18.5 million. In the same fiscal year, 
the U.S. Department of the Interior agencies expended 
approximately $3.3 million.
    According to a survey conducted by our Association, 44 of 
the 50 State fish and wildlife agencies that responded spent a 
total of $15.2 million in State money in managing this disease, 
and an additional $2.7 million in Pittman-Robertson funds for a 
total of approximately $18 million in fiscal year 2003.
    We also have some preliminary surveillance results from 
2002 to 2003 to share with you. I will quickly close with those 
observations. Every State is engaged in sampling free-ranging 
cervids and other ruminants. 265 out of 88,935 white-tailed 
deer tested positive for chronic wasting disease in that 
sampling season. 288 out of 15,937 mule deer tested positive, 
and 39 out of 12,843 elk tested positive. Positive tests were 
not manifest in several other species that were tested.
    With that, Mr. Chairman, I will close. Thank you again for 
the opportunity to appear before you. I would be happy to 
answer any questions. I would ask that my complete testimony be 
included in the record in its entirety.
    Senator Crapo. Without objection, so ordered.
    Thank you very much, Mr. Taylor.
    Mr. Walther.

 STATEMENT OF JACK O. WALTHER, PRESIDENT, AMERICAN VETERINARY 
              MEDICAL ASSOCIATION, WASHINGTON, DC

    Mr. Walther. Thank you, Mr. Chairman and Senator Allard. I 
am Jack Walther. I am a veterinarian and president of the 
American Veterinary Medical Association. I hail from a small 
town in northeastern Nevada, who is a neighbor to the chairman.
    The AVMA represents 86 percent of the active veterinarians 
in the United States, and are over 70,000 members, most of whom 
at some point in their career, have treated wildlife. Today, 
many veterinarians are dedicating their professional skills to 
studying chronic wasting disease and other diseases that affect 
animals and humans.
    Chronic wasting disease is one of the many transmissible 
spongiform encephalopathies. I am going to refer to those as 
TSEs. The AVMA and its members have been proactive for many 
years in addressing these important disease issues. As a 
result, we have developed a scientifically based position 
statement that supports the purposes of S. 1366.
    Our position statement commits AVMA to disseminating 
scientific knowledge, encouraging and enhancing surveillance, 
monitoring, and control programs, and encouraging government 
support for the development of new rapid diagnostic tests and 
control measures.
    We recognize and applaud the ongoing efforts of the 
Department of the Interior and the Department of Agriculture, 
and State and tribal agencies to implement the national plan 
for assisting State, Federal agencies, and tribes in managing 
chronic wasting disease in wild and captive cervids. Much have 
been accomplished, but much more needs to be done.
    At the same time, we urge the subcommittee to remember the 
need to address not only CWD, but also other diseases impacting 
wildlife and livestock. Some of these diseases also affect 
humans as well as animals, such as brucellosis in bison and elk 
in the Greater Yellowstone area, brucellosis in feral swine, 
and tuberculosis in wild deer.
    We live in a world of disease threats. TSE is one such 
threat. TSEs in animals include scrapie, BSE, which we all call 
mad cow disease, and chronic wasting disease.
    Colorado Governor Bill Owens recently told a panel of 
experts and key stakeholders from the public and private 
sectors that CWD ``affects every Coloradan'' and has the 
potential to severely damage hunting, tourism, and related 
industries, as well as the State's unique natural resources.
    Because CWD touches so many stakeholders, it is essential 
that programs addressing CWD be cooperative in nature. Nowhere 
is cooperation more vital than between agriculture and wildlife 
management agencies and groups at the State, national, and 
international level. Disease does not respect fence lines or 
State or international borders. CWD already has affected deer 
and elk in 13 States and 2 Canadian provinces.
    The AVMA supports Section 4 of the bill that provide grants 
to assist States in responding to CWD outbreaks. We also 
support Sections 3 and 5 of the bill that provide capacity-
building grants to States and tribal wildlife management 
agencies.
    The extent of testing and surveillance that is needed now 
and in the foreseeable future exceeds resources available to 
State departments of natural resources and tribal 
organizations. Financial support from the Federal Government 
will be required to comprehensibly and effectively test wild 
elk and deer populations.
    One clause in Section 4 that deserves further study, 
however, is the language that assigns priority for funding to 
States on the basis of previous State expenditures on CWD, 
management, and research. We agree with the idea that States 
should be rewarded for being proactive in managing CWD. 
However, States with fewer available resources, such as Nevada, 
may be inadvertently precluded from receiving grants. They may 
also be unable to fund surveillance funds and, therefore, have 
not been able to detect CWD in their States. These States 
should be given grants to support surveillance programs to 
determine whether CWD exists within their borders.
    CWD could potentially affect the entire United States. 
Therefore, Congress must be sure that States and tribal 
governments with the greatest need receive money and a fair 
share of those available.
    In keeping with our official policy, the AVMA has a strong 
presence and significant positive impact on professional and 
public education with respect to TSEs. Thank you very much. I 
would ask that my complete testimony be included in the record 
in its entirety.
    Senator Crapo. Without objection, so ordered.
    Thank you very much, Mr. Walther.
    Dr. Wolfe.

   STATEMENT OF GARY WOLFE, PROJECT LEADER, CHRONIC WASTING 
                 DISEASE ALLIANCE, MISSOULA, MT

    Mr. Wolfe. Good morning, Mr. Chairman and Senator Allard. I 
represent the Chronic Wasting Disease Alliance, which is a 
coalition of 15 organizations and businesses that are working 
together to positively address CWD. We really appreciate this 
opportunity to share our recommendations regarding chronic 
wasting disease, an issue which is obviously of considerable 
importance to our sportsmen, conservationists, wildlife 
managers, and the outdoor industry across all of North America.
    I would like to take just a moment and provide a brief 
overview of the CWD Alliance. Over the past few years, the 
Boone and Crockett Club, the Rocky Mountain Elk Foundation, and 
the Mule Deer Foundation became increasingly concerned about 
the impact CWD was having, and may continue to have, on our 
wild deer and elk populations. Moreover, they were also 
concerned about the impact this could have upon millions of 
hunters' confidence to continue hunting.
    These concerns led to the establishment of the CWD Alliance 
in January 2002. The Alliance is a collaborative project. It is 
not an organization. It is a project whose mission is to 
promote responsible and accurate CWD communications and to 
support strategies that effectively control CWD.
    During the past 2 years other prominent organizations and 
businesses have joined the Alliance, and it now includes a 
total of 15 participating partners. My written testimony lists 
all those partners.
    The Alliance recognizes that public information and 
education are vital to the resolution of the CWD dilemma and 
has placed a high priority on working with our State and 
Federal agency partners in implementing the Communications 
section of the national CWD plan.
    In that regard, the Alliance's most visible activity has 
been the development of a comprehensive chronic wasting disease 
website which has received more than a quarter of a million 
visits since we launched it in July 2002. The Alliance partners 
are very committed to this. During the last 2 years, they have 
committed over $102,000 to this project and have pledged an 
additional $83,000 for the activities of the Alliance in 2004.
    But now turning to the Federal role and how Congress can 
help. The National CWD Plan lays out an aggressive and 
coordinated interagency strategy for managing CWD. The Plan was 
followed up by an implementation document that identified 
specific action steps and budget needs of approximately $108 
million over a 3-year period.
    As an Alliance, we have had a chance to work with the State 
and Federal agencies, observe how they have worked together, 
and how they have been implementing this. We appreciate the 
funding that Congress has appropriated to date and the support 
that the Department of Agriculture and the Department of the 
Interior provided to the State wildlife agencies.
    However, there has not been adequate funding for full 
implementation of the national CWD plan. State wildlife 
agencies are on the front lines in the battle against CWD and 
they need additional financial support. Several States have 
redirected significant funds from other wildlife programs to 
the chronic wasting disease effort. We are especially concerned 
that this redirection of limited State wildlife funds could 
have disastrous impacts on other important wildlife management 
programs and it is not adequate to fully address chronic 
wasting disease.
    We would like to offer the following general 
recommendations on how Congress can best support the efforts to 
combat CWD. First, continued and increased funding for the 
national CWD plan should be a top priority. The International 
Association of Fish and Wildlife Agencies recently identified 
$34 million of CWD funding needs for the fiscal year 2005 
Federal budget. We urge Congress to give serious consideration 
to the International's recommendations, especially their 
request for $19.2 million for grants to State and tribal 
wildlife management agencies.
    Second, the CWD Alliance does not believe that additional 
legislation granting new authorities to address CWD or creating 
additional bureaucracy is what is needed at this point in time. 
We believe the respective Federal and State agencies do have 
the authority and the mechanisms to address this issue. There 
has been an exceptional level of interagency coordination and 
cooperation. An excellent strategy has been developed with the 
National CWD Plan and specific actions have been identified in 
the implementation document. Congress can now best assist with 
this effort through the appropriations process.
    We would like to thank Senators Allard, Feingold, and Crapo 
for introducing S. 1366. It addresses many of the concerns we 
have regarding adequate funding for the national CWD plan and 
is consistent with our general recommendations. We are pleased 
that this bill recognizes that States retain undisputed primacy 
and policymaking authority with regard to wildlife management.
    We support the bill's proposed grants program to assist 
States and tribes in developing and implementing CWD management 
and control strategies. We believe that $20.5 million of grants 
authorized by the bill is urgently needed and is necessary to 
adequately implement the national plan.
    In conclusion, America's wild deer and elk populations are 
priceless treasures. They are a source of beauty, inspiration, 
and recreation for millions of Americans and they infuse 
billions of dollars annually into our national economy. Their 
health and vitality must be protected.
    Once again, thank you for the opportunity to share our 
recommendations on this very important wildlife disease issue. 
I will be glad to help answer questions. I would ask that my 
complete testimony be included in the record in its entirety.
    Senator Crapo. Without objection, so ordered.
    Thank you very much, Mr. Wolfe.
    I would like to thank all the members of the panel, as well 
as the preceding panel. You have all been very good at 
succinctly summarizing your written testimony. I believe that 
your written testimony has been very well done. I want to thank 
you for the effort that has been put into this.
    I also just want to make a couple of comments. I appreciate 
the focus on this panel of making certain that we recognize the 
importance of solidifying the primacy of the States in terms of 
managing wildlife. Often we here in Congress, whether it is 
water issues, wildlife issues, fisheries issues, or whatever it 
may be, face the tendency that is there in so many other 
Federal programs, to not only find a Federal solution, but to 
basically federalize the jurisdiction and take control over the 
management of the issue away from the States. I think it is 
critical as we address CWD that we not start down that track. I 
want to thank Senator Allard as well for drafting this and 
helping to make sure that we recognize that in this 
legislation.
    Virtually all of the witnesses today have indicated that 
the authorities necessary for the wildlife agencies at the USDA 
and the Department of the Interior are in place for the 
mechanism to get resources to get to the needed research and 
management efforts.
    Do any of you disagree with that general summary of the 
testimony that we have heard today?
    Mr. George. No, Mr. Chairman.
    Mr. Taylor. No, Mr. Chairman.
    Mr. Walther. No, Mr. Chairman.
    Mr. Wolfe. No, Mr. Chairman.
    Senator Crapo. Mr. Taylor, I wanted to go into a couple of 
points in your testimony specifically just to be sure that I 
understand it clearly. Any of the others that would like to can 
jump in on this.
    In your testimony you indicate that the implementation 
strategy for the national CWD plan identified budget needs, 
excluding funding for environmental compliance activities of 
about $108 million over a 3-year period.
    If I correctly understood the resources that you went 
through that were provided, it included about $22 million from 
the USDA agencies and from the USDI agencies together, and 
about another $18 million that came from 44 of the 50 State 
fish and wildlife agencies that have responded, I assume that 
that was in one year; is that correct?
    Mr. Taylor. That is correct, Mr. Chairman; yes.
    Senator Crapo. Which is about $40 million of effort 
collectively among the various agencies, State and Federal; is 
that correct?
    Mr. Taylor. That's approximately correct; yes.
    Senator Crapo. If we are now seeing about $40 million a 
year going into the issue, and the national plan identified a 
$108 million need over a 3-year period, does that mean that we 
are meeting the need financially?
    Mr. Taylor. We are, because the States have set aside 
priorities for other programs to spend money on chronic wasting 
disease management. What you see reflected there, the $108 
million, although it is not broken down like that in the 
implementation plan, was largely anticipated to be 
congressionally appropriated funds to the different agencies, 
much of which would be passed through to the States.
    But in the absence of meeting objectives for that, the 
State fish and wildlife agencies in particular have found 
moneys by establishing a high priority for chronic wasting 
disease and unfortunately having to set aside some activities 
for other fish and wildlife management programs in order to 
adequately fund chronic wasting disease management and 
surveillance activities.
    So the short answer is yes. The expenditures of funds 
appear to be on track with the needs, but it also reflects the 
commitment of the States to get the job done in spite of the 
fact that congressional appropriations were not adequate to 
address their needs.
    Senator Crapo. So if were to look to the Federal Government 
for that $108 million need, the Federal Government would be 
falling short by about $42 million over a 3-year period?
    Mr. Taylor. If current levels of expenditure continue for 
the subsequent 2 years; yes, Mr. Chairman. That is why we, in 
our budget recommendations to the appropriations committees, 
have asked for an additional $10 million over and above the 
President's request for USDA-APHIS for the chronic wasting 
disease line item. As I indicated, that would be specifically 
directed to the State fish and wildlife agencies for continued 
surveillance and management activities.
    Senator Crapo. Put another way, what we are seeing right 
now is that the States are diverting approximately $18 million 
from other wildlife needs in order to meet the CWD research 
needs?
    Mr. Taylor. That is essentially correct.
    Senator Crapo. Senator Allard.
    Senator Allard. Mr. Taylor, you indicated you brought with 
you Dr. Thorne from Wyoming; is that right?
    Mr. Taylor. Yes, sir.
    Senator Allard. He works with the fish and wildlife agency?
    Mr. Taylor. He is with the Wyoming Game and Fish 
Department.
    Senator Allard. I would just point out that there, at the 
University of Wyoming, you have one of the top recognized 
experts on chronic wasting disease in deer and elk. You have a 
good resource there. I hope that you work with her.
    Mr. Taylor. Dr. Beth Williams?
    Senator Allard. Yes.
    Mr. Taylor. Who happens to be married to Dr. Tom Thorne.
    Senator Allard. OK. Very good. All right.
    [Laughter.]
    Senator Allard. Beth is your top transmission of 
information. Very good. So that is your wife, then; is that 
correct?
    Mr. Thorne. That is correct.
    Senator Allard. I am just telling you what I hear out 
there. I have never had an opportunity to meet her.
    Mr. Taylor. Beth does tremendous work on this. In fact, she 
was one of the original researchers that identified chronic 
wasting disease in free ranging cervids.
    Senator Allard. Exactly. I think she was a student at CSU 
when she started work on it; if that is correct.
    Mr. Taylor. Would you like to talk more about that?
    Senator Allard. It is important work. I think you need to 
know that the researchers have recognized her expertise. That 
is good.
    I would also like to recognize the rest of the panel and 
particularly you, Dr. Walther. I know it is not always easy to 
get here. I appreciate your being here and representing the 
Association.
    I just want to make sure that we have this on record. You 
have all heard the testimony from the two Agencies that we had 
here earlier. Do you agree with everything they said? If you do 
not agree with everything they said, where do you disagree? 
Anybody here on the panel want to disagree with them?
    Dr. Walther?
    Mr. Walther. I am not sure that I disagree, Senator Allard. 
I think from our perspective our concern is that I heard that 
in fact there was a line item and then I heard in the other 
Agency there was not a line item.
    Our concern is that the emphasis for dealing with this 
disease does not get shuffled off because of something else.
    There is much that we do not know about chronic wasting 
disease and the potential for this to spread, I think, exists 
greatly. I think we need to be sure that we are focused on the 
research and the surveillance that is needed to keep this as 
under control as possible.
    Senator Allard. Mr. George?
    Mr. George. Senator Allard and Mr. Chairman, the 
observation that I would like to share with you I think goes to 
what you are probing for and that is the question of: Are the 
Federal agencies cooperating? Are they forthcoming? Are they 
accountable in getting the Federal dollars onto the ground and 
focusing on the work in the greatest efficiency as we can?
    My observation is that over the last couple of years since 
this has really become a high priority issue is that there is a 
greater responsiveness, a greater interest in cooperating and 
partnering than I am accustomed to seeing. I think that that 
will continue. I really appreciate the emphasis being put on 
what has happened to the implementation plan, why is the 
national plan not moving any faster?
    That plan was put together the right way. It was done 
quickly but seriously and it is very comprehensive. The more we 
can do to get that back to the top and do what it asks for, the 
better. I think your legislation is helping us do that. I think 
the interest in it shown by the two Agencies here today and 
their effort to be consistent with the direction put forth in 
the plan is all very important.
    But I think the hallmark of what is happening in chronic 
wasting disease nationally is: Look at your NGO's who have 
stepped up on the education part of this. The States will 
always be the foundation of this because the wildlife and the 
domestic cervids are on the ground in the States. I think the 
two Federal agencies are really making an extraordinary effort 
to be there for us.
    If we can keep that effort at partnering going the way it 
started, I think it will work.
    Senator Allard. What is your greatest challenge in Colorado 
as far as managing the cervid population and chronic wasting 
disease?
    Mr. George. We felt that the first thing that had to be 
done was to learn what we have and where is it. I guess I 
should back up to say that the Colorado experience, as you 
indicated earlier this morning, Senator Allard, started some 
years ago at CSU and the environs where CSU researchers for the 
first time identified symptoms and then eventually were able to 
establish that there is a disease etiology going on there.
    So Colorado and Wyoming together have been working on the 
research side of this for a number of years. But in the most 
recent years that has caused us for the most part to be here 
today, it was the question of: Is this bigger than we thought 
it was? Where is it? What is happening?
    So at the Colorado Division of Wildlife, our first 
challenge was: We need to know where it is and in what numbers. 
To be able to collect that kind of a data base, particularly in 
the wild, is an extreme challenge. We could not have done it 
without the cooperation of our sportsmen.
    So what mattered to us was: How do we get a test available 
that is accurate and that the results can be returned to the 
sportsmen and, therefore, to the data base, quickly? Colorado 
State University stepped right up to the plate and said, ``We 
will do all we can do.'' The Division of Wildlife put into 
motion an extraordinary personnel effort to be able to get out 
into the field and to make these tests available.
    We went from a few thousand tests 3 years ago to 43,000 
tests last year, and then around 23,000 this year. We went from 
a 6-month return time period on the results to 2 weeks in that 
3-year period. We could not have done that without help from a 
number of sources, including our local veterinarians.
    The Colorado Veterinary Medical Association membership 
helped us. The Colorado State University brought together the 
best science available in a rapid test. All of that worked. 
That still, I think, is the important challenge, to be able to 
get enough samples across the State to know where we have 
infectivity and at what rates.
    Senator Allard. That is a tremendous growth in cases, or in 
animals that you are testing and a pretty substantial jump in 
improvement as far as getting your results back. I suppose that 
there is still some impatience out there amongst some of your 
hunters. They want results the next day or something like that. 
But at least it is much better than what it was.
    Let me ask you this, Mr. Taylor. You represent the fish and 
wildlife agencies here in the United States. How are they 
paying for their surveillance processes? Are they like 
Colorado? Have they increased their license fees in order to 
pay for that? Are they diverting money from other dollars? Or, 
are they expecting the Federal Government to come in and 
provide most of it?
    Mr. Taylor. I do not know any of our agencies that have 
raised their license fees in response to this. Most of them, as 
you know, are principally funded by licensees from hunters and 
anglers plus the Federal aid and wildlife and sport fish 
restoration money. That is the Pittman-Robertson funds that I 
mentioned.
    So most of the States are paying for this probably out of 
license fee sources, but they are not getting additional 
license fees. They are diverting money from other wildlife 
programs in order to place high priority on this particular 
issue. I am sure Director George could talk with you about some 
of the decisions that they have had to make in order to reflect 
the high priority on this.
    Senator Allard. Thank you.
    Mr. Chairman, I have no further questions.
    Senator Crapo. Mr. Walther, I had a question with regard to 
your testimony relating to one of the clauses in Section 4 of 
the Act where you talk about the fact that the formula 
basically provides funding to the States on the basis of a 
previous State expenditure on CWD management and research. You 
had a concern there about the fact that although a State should 
be rewarded for focusing on CWD, that some States who do not 
have the resources or who have had other difficulties, may be 
shortchanged.
    Could you expand on that a little bit?
    Mr. Walther. I think I could maybe use Nevada as a good 
example. The funding for this type of surveillance in the State 
for chronic wasting disease probably is not available. I do not 
know that for a fact, but just knowing the Fish and Game 
Department and their budget, I would assume that.
    It is certainly probable that because of the closeness, as 
with Idaho, that chronic wasting disease may even right now be 
present in Nevada, and if it is not, the chances of it 
occurring certainly are high. It would seem to me that as 
funding becomes available, that it should go to States like 
that that have not actually done the surveillance, but probably 
should be doing it. I think that funding would help them.
    Senator Crapo. All right. Thank you very much.
    I do not have any other questions either.
    Senator Allard.
    Senator Allard. I have just one followup question. Mr. 
Taylor, I believe you mentioned the EPA role in funding.
    Mr. Taylor. It was not funding, Senator Allard. It is the 
issue that Region 8 raised about a year ago.
    Senator Allard. Which States are in Region 8?
    Mr. Taylor. Well, Denver is the headquarters. I am not sure 
which States it covers. But it had to do with permit 
requirements for laboratory facilities, testing for chronic 
wasting disease and whether they would be required to have a 
waste water discharge permit.
    We believe that that has largely been solved by a recent 
record of decision that EPA made that characterizes the 
chemical agent that is used to neutralize prions as a pesticide 
under FIFRA, and therefore, gives EPA the authority to exempt 
those labs from requiring to have a waste water discharge 
permit. At least that is my understanding of the decision and 
its implications.
    As I indicated in my written statement, EPA has been 
participating in the national CWD task force. Hopefully, we are 
reconciling some differences of opinions and some concerns 
there that we had with respect to where they were going 
previously.
    Senator Allard. I think that is probably what has driven 
CSU to develop the digestive process that I mentioned where 
they had a tank. They put in a strong alkalizing agent of 
sodium hydroxide. Apparently that kills the prion very 
effectively. Ordinarily heat treatment does not do it and many 
other chemical treatments do not do it. If you have 43,000, 
that is a lot of ruminants of a carcass and a lot of heads that 
you have to process. I know that they have been working on 
that.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Crapo. Well, thank you very much. That concludes 
our questions. I want to again thank this panel as well as the 
other panel for the excellent testimony that you have provided, 
both your written testimony as well as your oral testimony here 
today.
    I want to let you know that it has helped us significantly 
as we evaluate this legislation and try to make sure that we 
bring necessary oversight to the issue so that we get the 
funding there as is needed by the States and maintain States' 
sovereignty.
    Again, we want to thank everybody.
    If there is nothing further, then this hearing will be 
concluded.
    [Whereupon, at 11:05 a.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]

          Statment of Hon. James M. Inhofe, U.S. Senator from 
                         the State of Oklahoma

    I would like to thank Senator Crapo for holding this hearing. As we 
have witnessed the devastating health, economic, ecological and 
environmental impacts of similar transmissible spongiform 
encephalopathy (TSE) diseases, such as scrapie and mad cow disease, it 
is disturbing to have such a serious and mysterious ailment affecting 
both wild and captive herds of deer and elk across our country.
    I am thankful that there have not been any large outbreaks of 
chronic wasting disease discovered in my State of Oklahoma to date, 
although one captive elk herd in Oklahoma has been diagnosed with the 
disease. The Oklahoma Department of Wildlife Conservation first began a 
cooperative project in 1999 to test hunter-
harvested wild deer and elk with the help of the USDA. So far nearly 
400 deer and elk have been tested for chronic wasting disease and all 
test results have been negative.
    Continued efforts to research the cause and spread of chronic 
wasting disease are important as well as implementation of the best 
methods for isolating and eliminating infected cervids. I am 
particularly encouraged that research in this area has been receptively 
facilitated by hundreds of cooperative hunters. Oklahoma plans to 
expand its existing surveillance program. Hopefully, with the 
cooperation of Federal and State agencies, private individuals and 
organizations, we will develop even better practices for managing 
infected wildlife, controlling the spread of chronic wasting disease, 
and minimize its occurrences and effects.
                               __________

  Statment of Hon. Max Baucus, U.S. Senator from the State of Montana

    Mr. Chairman, thank you for calling this important hearing today on 
chronic wasting disease. I am very sorry I could not be here in person, 
but my Finance Committee duties have kept me away. I would like to 
personally welcome Dr. Gary Wolfe, of Missoula, Montana, who will be 
testifying on behalf of the Chronic Wasting Disease Alliance. Dr. Wolfe 
has done an excellent job during his time with the Alliance. I am very 
pleased he is here today to share his knowledge and describe the good 
work of the Alliance in providing and distributing accurate information 
about chronic wasting disease (CWD).
    This hearing is very timely as there is increasing concern about 
CWD and the impacts it could have on our wild deer and elk populations. 
I know sportsmen and hunters are concerned about how CWD could impact 
their ability to hunt these important game animals. This in turn could 
hurt the important hunting and outfitting industry, particularly in 
states like Montana where hunting, outfitting and related businesses 
are vital to our economy. Montana is not currently affected by CWD like 
other states, but some believe it may just be a matter of time before 
CWD becomes a problem for us.
    Given the potentially devastating impacts of CWD, I've been pleased 
to learn that state and Federal wildlife agencies are working well 
together to come up with a strategic plan for addressing the growing 
CWD crisis. I fully support these efforts, and I will do what I can to 
work with my colleagues to see that these efforts are adequately 
funded. Coordinating research and information on CWD is extremely 
important to finding the best way to maintain healthy elk and deer 
populations across the country.
    I would like to applaud the Chairman and Senator Allard for 
introducing S. 1366 the Chronic Wasting Disease Financial Assistance 
Act of 2003. This bill has received positive testimony from today's 
witnesses, and I plan to study it carefully. I hope to be able to give 
it my full support.
    Thank you Mr. Chairman.
                               __________

       Statement of Hon. Russell D. Feingold, U.S. Senator from 
                         the State of Wisconsin

    I am pleased to be able to present my views on chronic wasting 
disease and the challenges faced by states and tribal governments in 
dealing with this disease.
    I would like to thank the chair of the Fisheries, Wildlife and 
Water subcommittee, Senator Michael Crapo, for holding this hearing on 
a topic of great importance to Wisconsin and allowing me to 
participate. I would also like to thank the ranking member of the 
Senate Environment and Public Works Committee, Senator Jim Jeffords, 
for his assistance with this legislative hearing.
    Chronic wasting disease (CWD) is a serious problem affecting both 
wild and captive deer and elk in my home state of Wisconsin. It was 
first detected in my state in 2002 and has now been detected in the 
neighboring states of Minnesota and Illinois. Wisconsin's experience in 
getting Federal assistance to address this problem, though eventually 
forthcoming, has been extremely slow and frustrating. The Federal 
Government must make chronic wasting disease a higher priority, and 
Congress must provide the relevant Federal agencies with the additional 
funds and authority so that they can do so.
    The state of Wisconsin completed an historic effort to test the 
deer in our state in 2002 and followed up in 2003. My state began 
intensive testing of deer after CWD was discovered on February 28, 
2002. Results from more than 56,000 white tail deer tested in our state 
have turned up 320 CWD-positive animals. Almost all of the infected 
deer detected came from an eradication zone covering parts of Dane, 
Iowa and Sauk counties. Other counties have detected CWD within their 
borders including Columbia, Kenosha, Richland, Rock, and Walworth. CWD 
has also been found in several captive herds in my state as well.
    Over 1,200 people in my state have been involved, conducting 
thousands of hours of work at millions of dollars of expense. 
Management and control of CWD has cost the state approximately $4 to $5 
million each year in staff resources and support funds. To cover these 
costs, the state has been redirecting staff and funds from other 
programs and activities, and concerns are growing that basic wildlife 
programs might be impacted in the future. The state has requested 
assistance in securing Federal support to ensure that CWD management 
does not drain excessive amounts of resources from other wildlife 
responsibilities.
    Therefore, I am pleased to be able to present my views on S. 1366, 
the Chronic Wasting Disease Support for States Act of 2003, which would 
bring critical Federal support to the effort to eradicate CWD. I have 
worked closely with the Senator from Colorado, Senator Wayne Allard, on 
this legislation in this and previous Congresses. Companion legislation 
has been introduced in the House (H.R. 2636) by Representatives Mark 
Green, Scott McInnis, and Paul Ryan. I am pleased to be working with 
this strong coalition to assist states and tribes in their efforts to 
manage, control, and eradicate CWD.
    The need for these funds is overwhelming, and the process for 
obtaining them needs to be more certain and more transparent. This bill 
authorizes direct grants to states and tribal governments battling CWD 
to be awarded by a manner prescribed by the Secretary of the Interior. 
Specifically, in the bill, the Interior Department is directed to give 
up to $10 million in grants to states and $3 million in grants to 
tribes to help them plan and implement management strategies to address 
chronic wasting disease in both wild herds of deer and elk. The 
Interior Department is directed to provide grants totaling $7.5 million 
to assist States in developing and implementing long term management 
strategies.
    This bill is needed because state wildlife and agriculture 
departments do not have the fiscal or scientific capacity to adequately 
confront the problem. Their resources are spread too thin as they 
attempt to prevent the disease from spreading. Federal help in the form 
of management funding, research grants, and scientific expertise is 
urgently needed. Federal and state cooperation will protect animal 
welfare, safeguard our valued hunting and livestock industries, help 
guarantee America's food safety, and protect the public health.
    This legislation is comprehensive, addressing both captive and wild 
animals and short term and long term needs. It authorizes a Federal 
chronic wasting disease program that will be administered by the United 
States Departments of Interior. I think it is extremely appropriate 
that legislators from Colorado, the state that has the longest history 
in chronic wasting disease, have made a concerted effort to work with 
Wisconsin members who are struggling with a new outbreak. I deeply 
appreciate the commitment of Senator Allard and others from the 
Wisconsin and Colorado delegations toward finding a solution that works 
for both our states.
    In the past, the Forests Subcommittee of the House Committee on 
Resources has delayed action on this bill based upon promises that the 
Department of the Interior (DOI) and the Department of Agriculture 
(USDA) would be acting quickly to put together a comprehensive CWD 
management plan. That plan was to be delivered in two parts--a Plan for 
Assisting States, Federal Agencies, and Tribes in Managing Chronic 
Wasting Disease in Wild and Captive Cervids, released in June 2002, and 
an Implementation document describing specifically what actions would 
be taken, the agencies responsible for individual projects, project 
timeframes, and the projected costs of completing each project.
    It has now been almost 2 years since the Forest Subcommittee's 
hearing, and the Implementation document has not been released. We now 
know generally the actions that the agencies would propose to take to 
assist states with the problem, but we need a better understanding of 
the financial resources needed to implement those actions. In 
correspondence dated January 22, 2003, the Department of Interior 
stated that the Implementation document was transmitted to the Office 
of Management and Budget (OMB) for review on December 18, 2002. I was 
successful in getting a provision included in the 2003 omnibus 
appropriations bill calling for the Implementation document to be 
released no later than May 20, 2003. That deadline has long since 
passed, and I have called for oversight hearings in the Senate.
    Recently, on March 9, 2004, I led the Wisconsin and Colorado 
delegations in sending a letter to OMB's Associate Director for Natural 
Resources requesting the immediate publication of the Implementation 
document. We continue to await a response. I am submitting a copy of 
this letter to the Committee with my testimony.
    Mr. Chairman, it is clear to me that Congress should wait no 
longer. Legislation is sorely needed to provide the Federal resources 
to address a wildlife problem that does not respect state borders. I 
look forward to working with this Committee to seek passage of this 
measure. This is a good bill, and it deserves the Committee's support.

    Statement of Dr. John Clifford, Assistant Deputy Administrator, 
            National Animal Health Policy and Programs, USDA

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to speak with you on behalf of the U.S. Department of 
Agriculture (USDA) about chronic wasting disease.
    CWD is a transmissible spongiform encephalopathy (TSE) of deer and 
elk, in the same family of diseases as bovine spongiform encephalopathy 
(BSE) and scrapie. It has been diagnosed in farmed elk and deer herds 
in eight States. Currently, there are only three known positive captive 
cervid herds in the United States: two positive elk herds in Colorado 
and one positive deer herd in Wisconsin. Epidemiological investigations 
are ongoing that follow trace animals from these and other positive 
herds that have been depopulated. CWD has also been identified in free-
ranging deer and elk in areas of Colorado, Illinois, Nebraska, New 
Mexico, South Dakota, Utah, Wisconsin, and Wyoming. The origin and mode 
of transmission of CWD are unknown.
    To ensure a coordinated and cooperative Federal approach to 
assisting States, a task force including USDA and the Department of the 
Interior (DOI), along with universities and State wildlife management 
and agriculture agencies, drafted the ``Plan for Assisting States, 
Federal Agencies, and Tribes in Managing CWD in Wild and Captive 
Cervids'' (national plan). The national plan was shared with Congress 
in June 2002. The national plan's components include action items for 
surveillance, diagnostics, and research, among other things. All 
agencies have been working together as budgets allow to implement the 
plan. The Department is committed to working with our State and tribal 
partners, as well as landowners and industry to implement an effective 
national program to combat chronic wasting disease. From fiscal year 
2003 through fiscal year 2005 (President's Budget), Department funding 
for CWD has increased by 41 percent, from $16.4 million to $23.1 
million. In Fiscal Year (FY) 2004, USDA-APHIS received $18.5 million 
which, after Congressional earmarks, is being divided roughly equally 
between the captive cervid program and assistance with addressing CWD 
in wild deer and elk. An additional $3.2 million was provided for USDA 
research activities in 2004, for a total of $21.7 million. The fiscal 
year 2005 budget includes $23.1 million, of which $20.1 is for APHIS 
and $3.0 is for research. However, funding decisions must be made on an 
annual basis, taking into consideration resource constraints and the 
many program needs that compete for these resources.
    In January, a working group composed of many of the same people 
that put the national plan together held a progress meeting in St. 
Louis. This working group is currently compiling a CWD progress report. 
By examining each action item set forth in the national plan, the 
progress report highlights accomplishments and further needs. While 
much has been done in the past 2 years, the report illustrates that 
there is much left to do in the fight against CWD.
    In addition to working with other Agencies on CWD, USDA is also 
moving ahead to address CWD in both captive and wild deer and elk 
populations.
    USDA is continuing the development and implementation of its 
voluntary national herd certification program to eliminate CWD from 
farmed cervids. On December 24, 2003, we published a proposed rule on 
the certification program. We received over 120 comments on this 
proposal, and we are evaluating these comments now. We anticipate 
publishing a final rule soon with the goal of implementing the program 
by the end of this year. While we work on implementation of this 
program, we will continue to pay for all laboratory costs associated 
with CWD testing in the farmed cervid population, and positive and 
exposed farmed cervid herds will continue to be eligible for indemnity. 
USDA also pays the costs of depopulation and disposal. Our goal is 
nothing less than eradication of the disease in the farmed cervid 
population.
    Although, as an agriculture agency, USDA's primary concern is with 
farmed cervids, we are also assisting States and Tribes in dealing with 
the wildlife aspect of the disease. USDA plans to make approximately 
$5.75 million available to the Tribal Nations and State wildlife 
agencies for this purpose. This funding will be distributed via 
cooperative agreements according to a formula initially developed in 
conjunction with the International Association of Fish and Wildlife 
Agencies (IAFWA) in fiscal year 2003. That collaboration continues. 
Under this formula, States are classified according to Tiers. Tier 1 
States, which have known occurrences of CWD in free-ranging cervids as 
of March 1, 2003, are eligible for the highest sums. States falling in 
the Tiers 2 and 3 are eligible for lower amounts. Through a cooperative 
agreement with the Native American Fish and Wildlife Society (NAFWS), 
regional Tribal biologists have also been hired to help improve CWD 
surveillance on Tribal lands.
    Our Wildlife Services program has been assisting State wildlife 
agencies with their activities. Our personnel have assisted with the 
harvesting of wild deer in Illinois and Wisconsin, and both deer and 
elk in Colorado for CWD testing. Additionally, we have assisted State 
wildlife agencies in collecting CWD samples from hunter-harvested deer 
at check stations in 10 States.
    Our Center for Veterinary Biologics (CVB) continues to approve new 
diagnostic test kits for CWD. Currently there are four tests that have 
been approved: one for use in elk, mule deer, and white-tail deer; 
another for mule deer and white-tailed deer; and two that are approved 
for white-tailed deer only. These diagnostic test kits are only 
available to APHIS approved laboratories contracted for CWD disease 
surveillance and are only licensed for use in wild deer and elk. These 
testing technologies provide wildlife agencies the ability to screen 
the large numbers of animals that are part of hunter harvest 
surveillance efforts. Immunohistochemistry (IHC) remains the 
internationally recognized method of choice for testing for TSEs and is 
being used for confirmation of positives as well as surveillance in 
captive deer and elk. CVB officials have placed a high priority on 
reviewing and evaluating other CWD test kits.
    Research into the area of CWD has continued as well. Our National 
Wildlife Research Center (NWRC) is researching the possibility of CWD 
vaccines as well as ways to identify improved barriers and repellents 
to keep wild deer and elk separated from captive cervids and other 
livestock. NWRC also plans to examine new decontamination methods for 
CWD-affected facilities.
    The Agricultural Research Service has also undertaken several 
research projects, including assessing the interspecies transmission of 
TSEs among livestock species and cervids, assessing herbivore 
susceptibility to TSE, and identifying and developing new methods for 
detecting prion protein molecules in the environment and feedstuffs.
    The Cooperative State Research Education and Extension Service 
(CSREES) supports research projects to determine the causes and methods 
for control of CWD through both competitive and formula-funded 
programs, as well as a Congressional special grant. In fiscal year 
2003, CSREES awarded $125,000 from the Critical Issues Program to 
Colorado State University to study the association of micronutrients 
and genetics with the prevalence of CWD in captive and free-ranging 
Rocky Mountain elk. CSREES also awarded a $232,180 special grant to the 
University of Wyoming to study the epidemiology and transmission of 
chronic wasting disease in deer using radiotelemetry equipment. 
Additionally, CSREES fiscal year 03 Hatch formula funds are supporting 
CWD projects in epidemiology, prion propagation, environmental 
persistence, and diagnostics at land grant institutions including the 
University of Wisconsin, the University of Illinois, and Purdue 
University. In fiscal year 04, several land grant and non-land grant 
universities, and Canadian and U.S. Federal agencies, including CSREES, 
have joined together to form a new multistate effort on transmissible 
spongiform encephalopathies (TSE's) which will include a concentration 
on CWD.
    Now that I've summarized USDA activities on CWD, I'd like to take a 
moment to discuss S. 1366. S. 1366 would authorize the Department of 
Interior to make grants to State and Tribal governments to assist State 
and Tribal efforts to manage and control the spread of CWD. For the 
past 2 years, Congress has provided additional appropriations to the 
APHIS program, which we have shared with the States and Tribes through 
cooperative agreements. As I mentioned earlier in my testimony, APHIS 
worked with IAFWA to develop criteria to distribute this funding to 
State wildlife agencies and NAFWS to meet CWD surveillance and 
management needs. Because this funding template has now been 
established, we think it would be most efficient to continue to use our 
existing system to pass CWD funds through to the States and Tribes, 
rather than create a new system as contemplated in S. 1366. For this 
reason, USDA does not think that this legislation is necessary.
    CWD is an important issue to USDA. There is a lot of work being 
done, and it will continue as we implement our herd certification 
program and expand our efforts to assist the States and Tribes. By 
continuing to work together with our Federal and State counterparts, we 
believe we can provide the most comprehensive approach to addressing 
the disease, even as the science continues to develop.
    Thank you for the opportunity to comment.
                                 ______
                                 
     Responses by John Clifford to Questions from Senator Feingold

    Question 1. Both you and Chip Groat at the Interior Department 
outlined the research agendas of your respective Agencies. What is the 
current distribution of the research funds and from what account in 
USDA's budget does the money come? What is the status of the research 
and development of a live animal test for chronic wasting disease 
(CWD)?
    Response. During fiscal year 2004, USDA's Agricultural Research 
Service (ARS) plans to invest approximately $2.6 million into CWD 
research, and USDA's Cooperative State Research, Education, and 
Extension Service plans to invest approximately $616,000. Through the 
National Wildlife Research Center, USDA's Animal and Plant Health 
Inspection Service (APHIS) is also investing approximately $1 million 
into CWD research and methods development activities.
    With regard to your research question, ARS collaborated with the 
Colorado Division of Wildlife and Colorado State University to develop 
a first generation live-animal test for CWD that is based on 
immunohistochemistry (IHC) of tonsil biopsies (the test is further 
described below). ARS continues a comprehensive research program in 
pathogenesis, disease transmission, and the application of novel 
technologies to discover and develop improved second generation 
diagnostics.

    Question 2. Both you and Mr. Groat discussed efforts to develop 
data bases to track CWD information. Mr. Groat indicated that the data 
base should be developed through coordination between the Agencies. 
What is the status of the development of this data base at USDA? Is 
USDA's data base linked to any other data bases, such as that being 
developed by Interior? If not, what are the plans to combine the data 
and share this information? Who currently has access to this 
information, and what are the plans for future access to data?
    Response. APHIS' Veterinary Services (VS) program is developing a 
farmed cervid data base to coincide with the launch of its CWD herd 
certification program in late 2004 or early 2005. Under the voluntary 
program, producers will submit elk or deer from their herds for CWD 
testing if the animals are over 16 months of age when they die. 
Surveillance data from these herds will be added to the VS data base 
and after 5 years of monitoring, a herd will be certified as low-risk 
if all of the animals tested were found free of CWD. VS is currently 
working with the US Geological Survey at the Department of the Interior 
to determine how information will be shared with the National CWD data 
base they are developing.

    Question 3. In Mr. Groat's testimony, he indicated that: ``Live 
animal testing efforts, using tonsillar biopsy . . . will also continue 
as an important management approach there.'' It is my understanding 
from conversations with Wisconsin deer farmers that there is no live 
animal test for CWD currently available. Is USDA using tonsillar 
biopsies in its management efforts, either independently or in 
conjunction with States and Tribal Governments? Can you provide 
scientific justification for the use or non-use of this test?
    Response. USDA is not currently using tonsillar biopsy in our CWD 
management efforts because such a testing method is not practical on a 
wide-scale basis. The National Park Service and the Colorado Division 
of Wildlife, among others, are conducting some surveillance among deer 
using tonsillar biopsy. This surveillance is for research purposes only 
at this time and general anesthesia is used to collect the biopsy. The 
tonsil biopsy procedure was adapted for deer by Margaret Wild (now of 
the National Park Service) and Michael Miller of the Colorado Division 
of Wildlife. ARS provided assistance with tissue testing. The test, 
however, has some limitations. It utilizes existing technology, 
primarily IHC, so it is not a rapid test nor one that can produce 
results in the field. Tonsillar biopsy can be useful in ``test and 
cull'' programs where the disease is known to exist, such as in urban 
situations where killing deer is not acceptable to the public. However, 
it is not a practical test for large-scale surveillance programs. 
Neither is it particularly useful for farmed cervid surveillance as it 
is stressful, costly, and requires immobilization which is always risky 
and occasionally fatal. Mortality testing over time is a more effective 
surveillance tool for detecting CWD in farmed cervids. In addition, the 
test is not suitable for use in elk because the prion protein does not 
accumulate in the lymph nodes to the same degree nor as early as in 
white-tailed deer and mule deer.

    Question 4. You testified that there are four diagnostic test kits 
available for CWD disease surveillance and that these are only 
available to APHIS-approved laboratories under contract. Could you 
provide additional clarification as to the procedures for a laboratory 
to be approved? What authority is USDA using to make this 
determination? Does USDA have any plans to approve private laboratories 
for prion disease testing, particularly CWD?
    Response. Testing and laboratory capacity have been important 
issues related to CWD. USDA expanded the number of laboratories 
approved to perform the IHC assay for CWD after realizing an increased 
testing capacity was necessary. USDA now has 26 laboratories that can 
run the IHC test, with an estimated testing capacity of a quarter of a 
million samples, more than adequate to meet current demand.
    Official diagnosis of CWD continues to be performed exclusively by 
Federal and State regulatory agency laboratories and this remains the 
current USDA policy. Currently, in order to be approved these State and 
Federal labs have to demonstrate competence with IHC techniques and 
have experience with TSE diseases in general. The facilities also have 
to have the required equipment to perform this testing and the ability 
to prioritize CWD testing at the request of USDA when necessary.
    The exclusive use of State and Federal regulatory laboratories is 
consistent with existing policies and practices for the control and 
elimination of program diseases. The system is designed to not only 
ensure consistency and accuracy but also to preserve domestic and 
international market confidence in U.S. agricultural commodities. A 
``false positive'', for any disease, not just CWD, could result in 
unnecessary public concern and costly regulatory action. And in the 
case of a disease like bovine spongiform encephalopathy, a false 
positive could be devastating, costing the U.S. economy billions of 
dollars in unnecessary domestic and international market disruption 
from which it could take years to recover.
                                 ______
                                 
      Responses by John Clifford to Questions from Senator Allard

    Question 1. In his testimony, it was mentioned that CWD has been 
diagnosed in farmed elk and deer herds in eight States. You also stated 
that there are only three known positive captive cervid herds in the 
United States: two positive elk herds in Colorado and one positive deer 
herd in Wisconsin. Is USDA currently planning any depopulation? If so, 
when will it occur and where? Do you have any idea of how many animals 
will be involved?
    Response. USDA has established animal health regulations to provide 
for the payment of indemnity for the voluntary depopulation of captive 
cervid herds known to be infected with CWD. USDA stands ready and 
willing to provide indemnity in order to encourage the depopulation of 
infected herds thus reducing the risk of spreading CWD. However, 
producers do have a choice between depopulating or quarantining their 
herd. One of the Colorado producers you reference has chosen to 
quarantine his herd of approximately 200 elk but is discussing a herd 
plan with the State of Colorado, which could allow him to try to manage 
out of the disease. The other Colorado producer you reference refused a 
previous offer of indemnity, and the Wisconsin herd owner is currently 
in litigation with the State of Wisconsin over the validity of tests 
results that found CWD-positive animals in his herd. The Colorado herd 
contains approximately 35 elk and the Wisconsin herd contains an 
estimated 150 deer. In addition, in late May, another Wisconsin herd 
with approximately 10 deer tested positive for CWD, and that producer 
has expressed interest in indemnity and depopulation. As yet, no 
appraisals have been obtained and no timetable set. All 4 herds are 
under State quarantine.

    Question 2. You mentioned the National Plan in your statement and 
testimony. You also stated that the Department is committed to working 
with our State and Tribal partners, as well as landowners and industry 
to implement an effective national program to combat CWD. Congress has 
demanded a final plan--why has the final plan not been promulgated? 
What is the status of the National plan? If the problem is with OMB, 
can you explain their reasoning?
    Response. In June of 2002, a task force of Federal agencies and 
State wildlife management agencies completed the ``Plan for Assisting 
States, Federal Agencies, and Tribes in Managing Chronic Wasting 
Disease in Wild and Captive Cervids'' and presented it as the 
``National Plan'' to Congress. We are implementing this plan. As a 
followup to that plan, State wildlife agencies, universities, and 
Federal agencies developed a set of action items to help guide their 
response and direct funds to the ongoing battle against CWD. 
Information on these activities is contained in what is called the 
``progress report,'' which is meant to identify progress made in fiscal 
year 2003 on those actions consistent with the National Plan. The 
report, which was reviewed by the Office of Management and Budget and 
sent to members on May 27, also highlights areas for future steps for 
the management of CWD.

    Question 3. When discussing the National Plan, several witnesses 
mentioned a progress report. What is the progress report and how does 
it relate to the National Plan? When is the progress report due?
    Response. The progress report described above was recently 
finalized by APHIS on behalf of USDA, the U.S. Fish and the Wildlife 
Service representing the Department of the Interior, and the 
International Association of Fish and Wildlife Agencies representing 
the States, after review by the Office on Management and Budget. On May 
27, a copy of the report was provided to each member of the 
Subcommittee.

    Question 4. Please explain in further detail (matching funding to 
program areas) how your spending on CWD matches the spending outlined 
in the draft management plan, using the recommendations and categories 
outlined in the final draft plan.
    Response. As detailed in the ``Progress Report on the Plan for 
Assisting States, Federal Agencies, and Tribes in Managing Chronic 
Wasting Disease in Wild and Captive Cervids,'' during fiscal year 2004 
USDA is estimating that it will spend approximately $79,000 on 
communications; $114,000 on information dissemination; $766,000 on 
diagnostics; $7.428 million on disease management; $4.216 million on 
research (including $1 million for activities carried out at APHIS' 
National Wildlife Research Center); and $6.92 million on surveillance. 
These figures do not include approximately $2.25 million earmarked by 
Congress for specific State projects.

                               __________

   Statement of Charles G. Groat, Director, U.S. Geological Survey, 
                    U.S. Department of the Interior

    Mr. Chairman, thank you for the opportunity to provide the 
Subcommittee with the Department of the Interior's (Department) views 
regarding S. 1036, the ``Chronic Wasting Disease Support Act of 2003,'' 
and S. 1366, the ``Chronic Wasting Disease Financial Support Act of 
2003.'' The Department continues to be concerned with the current and 
future effects of chronic wasting disease (CWD) on free-ranging deer 
and elk.
    The Department supports the concepts embodied in these bills, 
particularly the recognition and facilitation of the critical role that 
state wildlife management agencies, universities, and non-governmental 
organizations (NGO's) play in limiting the distribution and occurrence 
of CWD. However, we note that several of its provisions direct the 
Secretary to carry out programs which appear, at least in part, 
duplicative of ongoing efforts within the Department. Moreover, the new 
funding required for implementation must compete with other priorities 
in the context of the President's Budget.
    Before I provide specific comments on S. 1036 and S. 1366, I would 
like to take this opportunity to inform you of the latest efforts 
undertaken by the Department to understand and combat CWD.

                  RECENT DEPARTMENTAL ACCOMPLISHMENTS

    The Department manages about one in every five acres of land in the 
United States and has a variety of stewardship responsibilities for our 
natural resources. Through the U.S. Geological Survey (USGS), the 
National Park Service (NPS), the U.S. Fish and Wildlife Service (FWS), 
the Bureau of Land Management (BLM), and the Bureau of Indian Affairs 
(BIA), the Department provides assistance to, cooperates with and, in 
some cases, co-manages wildlife with states and tribes to ensure 
healthy, viable wildlife populations.
    Through increased surveillance and monitoring, CWD has been 
discovered in free-ranging deer or elk in eight states, including 
Colorado, Wyoming, Nebraska, Utah, New Mexico, South Dakota, Wisconsin, 
and Illinois. The possibility for detection of this disease in 
additional states, coupled with the little information we know about 
the nature and spread of this disease, increases the urgency and need 
to find effective means of detection and control.
    With this in mind, we recognize that states and tribes possess 
primary responsibility for management of resident fish and wildlife 
within their borders. However, in order to successfully combat CWD, we 
believe we must continue to employ an approach that is built on the 
strengths of Federal agencies and state and tribal entities. Using this 
approach, the Department conducts research into the biology and 
management of this disease, provides wildlife-related laboratory 
services, offers technical advice and assistance to our partners, and 
works in close cooperation with the states. Additionally, we are 
working to foster and facilitate close working relationships with 
private landowners and incorporate their needs into surveillance 
strategies and outbreak responses.
    The Department has taken an active role in fiscal year (FY) 2004 by 
committing over $4 million to investigate and combat CWD. The funds are 
used by USGS to expand research and deliver technical assistance and 
pertinent biological information about the disease to Federal and state 
agencies. The NPS is continuing its monitoring and surveillance efforts 
at high risk parks and management efforts at Rocky Mountain National 
Park and Wind Cave National Park. This effort is carried out in concert 
with the Colorado Division of Wildlife efforts on adjacent State lands. 
The FWS is developing field guidelines for enhanced surveillance and 
the development of disease contingency plans in the event that the 
National Wildlife Refuge System detects the disease within its borders.
    Over the past year, the Department has embarked on an aggressive 
program of research into the biology of CWD, its hosts, and its 
transmission pathways. In addition, USGS and its partners are working 
to develop methods needed to identify diseased animals before signs of 
the disease are apparent. During fiscal year 2003 and 2004, the USGS 
committed a total of $2.7 million to its CWD program.
    The Department's land management bureaus have also contributed to 
the application of science in the management of Federal lands under 
their control. Most prominently, the NPS, which manages more than 84 
million acres contained in 388 park units, is extremely concerned about 
CWD and the potential impacts this disease could have upon the wildlife 
resources of the parks and adjacent lands. To date, deer and elk with 
CWD have been detected in only two National Parks, Rocky Mountain 
National Park in Colorado and Wind Cave National Park in South Dakota.
    The disease was first documented in Rocky Mountain National Park, 
Colorado, in 1981. Based on samples taken from live deer at the park, 
the prevalence of infection for deer is about 5-6 percent, roughly the 
same for animals in the area surrounding the park. The prevalence of 
the disease in elk in areas adjacent to the park was estimated by the 
State of Colorado at 1-4 percent, and is likely similar within the 
park. The park is continuing tactical management activities for CWD 
within the Park and collaborative efforts on research and joint 
strategy development with the Colorado Division of Wildlife (CDOW). The 
park is culling deer and elk with clinical signs of the disease and 
deer that test positive for CWD using tonsillar biopsy. Additionally, 
an Environmental Impact Statement for the park's Elk and Vegetation 
Management Plan is in preparation.
    The first case of CWD at Wind Cave National Park, South Dakota, was 
detected in November 2002. The park has stepped up surveillance and 
live testing of deer and has to date documented CWD in five deer and 
two elk. The park continues a collaborative planning effort with the 
State of South Dakota on an elk management plan. Live animal testing 
efforts, using tonsillar biopsy, and removal of CWD positive deer will 
also continue as an important management approach there.
    Due to their proximity to nearby infected wild deer and elk herds, 
CWD can also threaten wildlife on adjacent Federal lands, including 
Yellowstone National Park, in Wyoming and Montana, Dinosaur National 
Monument in northwestern Colorado, and Agate Fossil Beds and Scotts 
Bluff National Monuments in western Nebraska.
    In addition to funding investigations of CWD at Rocky Mountain 
National Park and Wind Cave National Park with Service-wide Natural 
Resource Preservation and Protection project funding, the NPS received 
additional funds in fiscal year 2004 to address emerging diseases, 
especially CWD. The NPS is fielding a CWD Response Team, modeled after 
the highly successful exotic plant management teams which it uses to 
combat nonindigenous plants in park lands, to continue and expand on 
the NPS's ability to respond quickly to CWD issues in park units. The 
NPS is also continuing collaboration with researchers at Colorado State 
University investigating CWD epidemiology, transmission, and pathology.
    The FWS has been assisting states in CWD monitoring and 
surveillance, as it develops field guidelines at a national level for 
coordinated monitoring and surveillance. These guidelines are being 
designed collaboratively with the states to help determine CWD 
distribution and movement. In addition, disease contingency plans are 
being coordinated with states to manage CWD in the event that the 
National Wildlife Refuge System detects the disease within its borders. 
New detections of CWD in Wyoming and expansion in Nebraska deer 
indicate that CWD poses a critical threat to national cervid resources. 
Similarly, elk and deer at the National Elk Refuge and Ft. Niobrara 
National Wildlife Refuge are in the path of potential CWD expansions. 
FWS has conducted CWD training workshops covering the eight states of 
its Mountain-Prairie Region, which included participation of partners 
and Native American tribes.

                      COOPERATIVE RESEARCH EFFORTS

    As an example of our commitment to cooperate with States on this 
issue, USGS recently developed a program to work cooperatively with six 
states affected by CWD: Colorado, Wisconsin, Wyoming, Nebraska, South 
Dakota, and Utah. This $300,000 effort has helped initiate projects 
that will develop critical information on issues ranging from deer 
movements and ecology to the develoment of theraputic agents.
    In December 2002, USGS coordinated efforts with state, Federal, and 
university partners to develop a strategy to assist agencies in their 
development of surveillance programs. This document, ``Surveillance 
Strategies for Detecting Chronic Wasting Disease in Free-ranging Deer 
and Elk'' represents another important cooperative effort.
    New USGS research initiated within the past year addresses the CWD 
problem using both laboratory and field approaches. Through the USGS 
National Wildlife Health Center in Madison, Wisconsin, we have 
initiated studies with Montana State University to develop a serum test 
for CWD biomarkers to facilitate early detection of the disease. These 
investigators are also working on a rapid, strain-specific immunoassay 
for CWD that will help detect differences in strains among populations 
and newly emerging strains that may appear over time. We are also 
working with the Wyoming Department of Fish and Game to establish a CWD 
tissue bank to provide biological tissue resources for research 
projects.
    In addition, USGS scientists working with those at Michigan State 
University and the University of Wisconsin are looking at specific 
immune system genes that have been shown to influence transmissible 
spongiform encephalopathy (TSE) pathogenesis. The purpose of this 
investigation is to determine if there is an association between 
specific genes and CWD resistance in wild white-tailed deer. There are 
several field studies underway by the USGS Wisconsin Cooperative 
Research Unit in Madison, Wisconsin in partnership with the University 
of Wisconsin-Madison and the Wisconsin Department of Natural Resources.
    Other evaluations underway include a look at the practice of 
feeding and baiting deer, in order to determine if this increases the 
risk of transmission in wild deer, and the role of small mammals and 
scavengers that feed on deer carcasses is being investigated in the 
context of the disease cycle. Also, the potential for other wildlife 
species to contract CWD is being studied in the intensive deer 
management zone in Wisconsin. Genetics relationships among deer with 
CWD are also under investigation. Results from these studies will 
ultimately be used in developing risk assessment and epidemiological 
models. The USGS National Biological Information Infrastructure (NBII) 
has established a Wildlife Disease Information Node that highlights 
activities and information related to CWD to assist in data sharing 
across organizations.
    The Department has also worked in conjunction with the Department 
of Agriculture, as well as universities, state wildlife management and 
agricultural agencies, to develop a coordinated management approach to 
addressing CWD. This National CWD Plan approach, released in June 2002, 
includes strategies for communication, information dissemination, 
diagnostics, disease management, research, and surveillance. The 
Department has also recently participated with the states and 
Department of Agriculture in preparing the Progress Report to the 
National CWD Plan.

               DEPARTMENTAL VIEWS ON S. 1036 AND S. 1366

    The potential for detection of CWD in free-ranging deer and elk in 
additional states points out the need for continued coordination in the 
effort to manage this disease. S. 1036 and S. 1366 would address this 
need by directing the Department, through the USGS, the NPS, and the 
FWS, to undertake work on several fronts important to limiting the 
distribution and occurrence of CWD.
    As previously noted, the Department supports the concepts embodied 
in these bills, particularly the recognition of the critical role 
played by state wildlife management agencies, universities, and NGO's 
in limiting the distribution and occurrence of CWD. I should note that, 
in fact, the Department has already initiated work on several of these 
important initiatives, and we have done so in close coordination with 
states, tribes, and other Federal agencies.
    Generally S. 1366 would authorize the Secretary, through the FWS, 
to make grants to states and tribes to assist in the development of and 
implementation of long-term management strategies, and to state 
wildlife management agencies to assist in responding to CWD outbreaks 
in wild cervid populations. We note that the state grant programs 
authorized by this section appear duplicative of the Fish and Wildlife 
Service's existing authority to make state wildlife grants.
    S. 1036 provides for a multi-agency cooperative effort against CWD 
by the Departments of the Interior (through Title I) and Agriculture 
(through II). Section 101 of S. 1036 would direct the Secretary of the 
Interior to allocate funds directly to state wildlife agencies for the 
purpose of developing and implementing CWD management strategies. The 
criteria provided for the allocation of funds address the need to 
prioritize this financial support based on the relative rate of 
incidence, state financial commitments to CWD programs, integration of 
state policies related to CWD management, and the need to respond 
rapidly to disease outbreaks in new areas of infection. This grant 
program also appears duplicative of the Fish and Wildlife Service's 
state wildlife grants program.
    Sections 102, 103, and 104 of S. 1036 would, generally, direct the 
Secretary to establish a modeling program to predict the spread of CWD 
in wild deer and elk; using existing authorities, a CWD surveillance 
and monitoring program on Federal lands; and, finally, using existing 
authorities, a national, internet-based repository of information on 
CWD.
    The Department supports modeling efforts, as well as the 
development of a national data respository. We believe the need for 
sharing information is critical to making informed, science-based, 
management decisions. Such a data base will take full advantage of our 
existing capabilities in biology, mapping, and scientific data base 
development. Maintaining CWD-related data on both wild and captive 
populations will facilitate integrated analyses and allow practical 
``lessons learned'' in diagnosis, surveillance, and control to be 
shared rapidly among a wide range of users. In fact, through its 
National Biological Information Infrastructure, the USGS is already 
developing a prototype Wildlife Disease Information Network, which will 
include a CWD national data repository for scientific, technical, and 
geospatial information. CWD data will be collected through state and 
Federal agencies, tribes, and other sources. However, in terms of the 
data base suggested by this legislation, we believe that it should be 
developed in coordination with Department of Agriculture, which has 
oversight responsibility for captive cervids.
    As dicussed above, the establishment of surveillance and monitoring 
programs are already underway. The NPS is currently conducting 
surveillance programs and managing the disease on national park lands, 
and the FWS is finalizing a plan for surveillance on National Wildlife 
Refuges. The USGS has assisted both state and Federal agencies in the 
design considerations for surveillance, and will continue its research 
on critical aspects of the disease ecology and impacts.

                               CONCLUSION

    The Department's role as stewards of our natural resources and our 
strong cooperative relationship with states and other partners have 
allowed us to facilitate development of a coordinated strategy to 
combat CWD. We fully support the concepts 
advanced by these bills, and offer to work with the Committee to ensure 
that, if enacted, these bills provide an efficient and effective use of 
our resources and authorities.
    Mr. Chairman, this concludes my statement and I am pleased to 
respond to your questions.
                                 ______
                                 
     Responses by Charles G. Groat to Questions from Senator Allard

    Question 1. Several witnesses at the hearing as in your statement 
and testimony, mentioned the national management plan. Congress has 
demanded a final plan--why has the final plan not been promulgated? 
What is the status of the national plan?
    Response. In June 2002, a task force representing Federal agencies, 
state wildlife management agencies, academia, and other stakeholders 
released the ``Plan for Assisting States, Federal Agencies, and Tribes 
in Managing Chronic Wasting Disease in Wild and Captive Cervids'' 
(National Plan). This plan listed broad goals and actions needed to 
meet the many challenges posed by chronic wasting disease (CWD). A 
progress report on the National Plan's implementation was delivered to 
the Colorado and Wisconsin Congressional delegations on May 27, 2004.

    Question 2. How has your spending aligned with the spending 
recommended in the draft management plan?
    Response. The U.S. Geological Survey (USGS) is using the technical 
aspects of the National Plan to set research priorities for its $2.7 
million CWD program. Current studies address transmission of the 
disease, disease ecology and wild cervid populations, genetic 
resistance, environmental persistence and transmission, and adapting/
developing rapid, live animal tests for wildlife.

    Question 3. In your opinion, does CWD pose a greater threat for 
wild cervid populations or captive cervids? If the wild cervid 
population is more at risk than captives, do you believe the two 
departments are receiving adequate appropriations for their respective 
roles in CWD management?
    Response. Due to the large number of unknowns regarding CWD, it is 
difficult to compare the relative risk to captive herds versus wild 
populations. Clearly, the disease has been a problem in both. It does 
appear that traditional disease intervention methods, such as those 
used by U.S. Department of Agriculture's (USDA) Animal and Plant Health 
Inspection Service (APHIS), have been largely successful in addressing 
CWD within the captive cervid populations. These methods include early 
detection and quarantine, as well as depopulation and indemnification 
of owners of affected herds.
    Management options for wild, free-ranging populations of deer and 
elk are much more complex and need further research. As a responsible 
steward of the National Parks, National Wildlife Refuges, and other 
public lands, the Department of the Interior must balance many 
competing demands for its limited resources. The two Departments are 
working together to develop a coordinated effort to deal with this 
disease in both captive and wild cervids.
    Regardless of whether CWD poses a greater overall risk to wild or 
captive cervids, it is clear that our limited understanding of this 
disease will continue to constrain its effective long-term management, 
especially with regard to wild, free-ranging populations.
                                 ______
                                 
    Responses by Charles G. Groat to Questions from Senator Feingold

    Question 1. USDA currently has a line item in the APHIS budget for 
CWD. You noted that Interior distributes funds for CWD from some larger 
accounts. What is the process or formula that Interior uses to make 
these allocations of funds? What criteria are used to rank funding 
priorities?
    Response. The Department of the Interior is working closely with 
the states and the USDA to follow the recommendations set forth in the 
CWD National Plan. There is no set formula; instead we identify 
internal needs and also hold coordination meetings with states to 
review current information, identify priorities, and fund the more 
urgent needs that will deliver the greatest amount of information 
required for management of the disease. The coordination meetings are 
well received by states and have resulted in cross-state cooperation in 
research areas. The most recent multi-state coordination meeting, held 
in April 2004, resulted in plans for a workshop to bring states, USGS, 
and other Federal agencies together to share research results and set 
priorities for research and management for the next year.

    Question 2. Both you and Dr. John Clifford at the Agriculture 
Department outlined the research agendas of your respective agency. 
What is the current distribution of the research funds and from what 
account in Interior's budget does the money come? What is the status of 
the research and development on a live animal test for CWD?
    Response. USGS has a $2.7 million effort in CWD research. All of 
these funds are allocated through the USGS budget, under the Biological 
Research and Monitoring sub activity. Most of these funds support our 
base program and are allocated to our science centers to conduct CWD 
research. A total of $300,000 is made available to states to support 
cooperative research efforts.
    As discussed in Question 4 below, a live animal test involving the 
analysis of tonsil tissue has been successfully used to detect CWD in 
live, free-ranging deer for several years. Because this is currently 
the only technique available, research is focusing on identifying 
sampling methods that are easier and less invasive and are more 
effective in elk, and on testing methods that could be performed more 
rapidly. For example, USGS recently began a study in cooperation with 
Montana State University that will evaluate the possibility of a serum 
biomarker for detecting CWD in early, pre-clinical stages.

    Question 3. Both you and Dr. Clifford discussed efforts to develop 
data bases to track CWD information. You indicated that the data bases 
should be developed through coordination between agencies. What is the 
status of development of this data base at Interior? Is the data base 
linked between the agencies, such as that being developed by USDA? If 
not, what are the plans to combine the data and share information? Who 
currently has access to this information, and what are the plans for 
future access to the data?
    Response. The National Biological Information Infrastructure (NBII) 
received $250,000 in fiscal year (FY) 2004 for CWD information 
management initiatives. Efforts are underway to finalize both the 
functional and technical requirements for a web-based national CWD data 
clearinghouse (data base). The NBII Wildlife Disease Information Node 
is working closely with the USGS National Wildlife Health Center in the 
development of this national CWD data base. We are constructing the 
data base to accommodate CWD research, monitoring, and surveillance 
information contributed by participating state, Federal, and tribal 
agencies and other organizations. Our objective for 2004 is to create a 
prototype that includes CWD data from two to four states and other 
interested CWD data holders. We are working with USDA/APHIS Veterinary 
Services to determine how best to integrate data from captive animals 
with this prototype; our technical plan is to make the USGS/NBII and 
USDA/APHIS CWD data bases interoperable.
    Participating data providers will choose the amount and type of 
data they wish to provide to the prototype. Through this prototype, 
participating organizations will have the ability to browse, query, 
report, and visualize basic data, and to test it. Testers of the 
initial prototype will be asked to recommend changes to data collection 
input screen designs. We expect to demonstrate the CWD national data 
base prototype at the September 2004 IAFWA annual conference general 
session and at several committee meetings.
    Once a truly national CWD data clearinghouse is developed, 
contributed data will be protected by a secure password system, with 
access to the data base itself restricted in accordance with the 
negotiated agreements among participating agencies and organizations.
    In addition to the CWD data base, a web-based information resource 
containing summary data for general public use is also slated for 
development. Federal, state, and tribal agency participants at a June 
2003 CWD data standards meeting proposed that summary data not of a 
sensitive nature be made available and accessible to the general 
public.

    Question 4. In your testimony, you indicated that ``live animal 
testing efforts, using tonsillar biopsy . . . will also continue as an 
important management approach there.'' It is my understanding from 
conversations with Wisconsin deer farmers that there is no live animal 
test for CWD currently available. What is the current practice of using 
tonsillar biopsies in the management of CWD? What is the scientific 
basis for this practice and how effective is it?
    Response. A live animal test utilizing immunohistochemistry (IHC) 
testing of tonsil tissue has been reported in peer-reviewed scientific 
literature and has been used successfully for several years to detect 
CWD in live, free-ranging mule deer and white-tailed deer before the 
appearance of clinical signs of the disease. The test uses the same 
approach developed to detect scrapie in live domestic sheep.
    The National Park Service, here in the Department, and the Colorado 
Division of Wildlife have successfully used tonsillar biopsies as a 
live-animal CWD surveillance tool for wild, free-ranging deer in some 
instances for approximately 2 years. The process involves the capture 
of deer, chemical immobilization, and collection of a small sample 
(biopsy) of tonsil tissue. A radio transmitter is attached to each 
animal prior to release. The sample is submitted to a diagnostic 
laboratory where the tissue sample is tested for the presence of CWD-
associated prions using IHC. Animals testing positive are identified 
and located via radio telemetry and subsequently euthanized. Tonsillar 
biopsies have been used in Rocky Mountain National Park, Wind Cave 
National Park and several states (especially suburban environments) 
where hunter harvest is insufficient or unavailable for herd 
surveillance.
    Tonsillar biopsies have several benefits. The test has been useful 
for detecting CWD-positive deer particularly in protected areas or in 
populations where hunter harvest is low (i.e., not many deer are killed 
by hunters). Additionally, CWD-associated prions can be detected in the 
lymphatic system of deer, including lymphatic follicles in the tonsils, 
months before the onset of clinical signs of disease. As a result, 
infected animals can be removed from the population earlier, 
theoretically reducing the probability of disease spread.
    While tonsillar biopsies have been used in some limited situations 
where intensive management is possible, it is not an ideal test for 
wide-scale application. Tonsillar biopsy is a relatively invasive 
technique and requires expertise in application to obtain a usable 
sample. The cost and effort required to capture free-ranging deer for 
tonsillar biopsy, or collection of any diagnostic sample directly from 
the individual, is high. Because the biopsy sample must be submitted to 
a laboratory for testing to determine disease status, the deer must be 
located again for management action if a positive sample is detected. 
An additional limitation to the test, and potentially other diagnostic 
tests that may be developed, is that the prion protein is not commonly 
detected in the lymphoid tissues of elk before clinical signs of the 
disease appear, as is the case with deer. Therefore, tonsillar biopsy 
is currently most applicable to deer. Finally, because CWD is a slowly 
progressing disease, a negative tonsil biopsy is not proof that the 
animal is in fact CWD-negative. Early in the disease course there is 
insufficient accumulation of prion protein to be detected using 
available technology.
    In addition to other research, a recently initiated, collaborative 
project between the USGS National Wildlife Health Center and the 
University of Montana is investigating the development of a blood-based 
live animal test for CWD. Researchers have noted that CWD prions can be 
detected in the lymphatic system of infected animals many months before 
the onset of clinical signs. Scientists believe that metabolic 
byproducts (biomarkers) related to early infection may exist and may be 
detectable in the blood of infected animals. Development and refinement 
of more efficient and effective tests for elk and deer will likely be 
long-term efforts.

                               __________
 Statement of Russell George, Executive Director, Colorado Department 
                  of Natural Resources, Washington, DC

    Good morning, Mr. Chairman and distinguished members of the 
Subcommittee. I am Russell George, Executive Director of the Colorado 
Department of Natural Resources. Thank you for the opportunity to 
appear before you today to discuss the management of chronic wasting 
disease, commonly referred to as CWD, and in particular the role of the 
Federal Government in helping to address this disease. I appreciate the 
past support and leadership of Congress on the subject of CWD, an issue 
of considerable importance to the State of Colorado and to many other 
states across the country as well.

                            CWD IN COLORADO

    Prior to 2002, we in Colorado believed with some confidence that 
CWD was confined to populations of wild deer and elk in the 
northeastern portion of our state. That assumption was based in part on 
more than two decades of work on CWD conducted in cooperation with our 
colleagues in Wyoming, at Colorado State University (CSU) and 
elsewhere. Unfortunately, 2 years ago we detected CWD in deer and elk 
herds on Colorado's western slope, requiring us to significantly expand 
our CWD surveillance and customer service efforts at considerable 
expense.

                  COLORADO ASSISTANCE TO OTHER STATES

    Since then CWD has regrettably been detected in several other 
states as well. In response, Colorado willingly shared its experiences 
with wildlife officials from those states in order to help them 
understand and combat this wildlife disease. For example, we have 
shared with those states information not only on the disease itself, 
but also regarding rapid testing procedures and our protocols for 
surveillance and management. As a result, the knowledge that we have 
gained and the programs we have initiated in Colorado are often used as 
a model by others. I am pleased that the pioneering CWD work done in 
Colorado and Wyoming have allowed other states to save scarce funds and 
limited personnel time by enabling them to focus on initiatives, 
technologies and approaches that we already have demonstrated to be 
effective.

                   STATE NEEDS FOR FEDERAL ASSISTANCE

    Allow me to assure you that no state understands better than 
Colorado the tremendous resources wildlife agencies will have to commit 
to CWD programs now and in the future. As I've noted, Colorado has 
invested heavily in tackling the challenge of CWD and we have done so 
largely with state funds, especially revenues derived from the sale of 
hunting licenses.
    But I think it is now clear that Congress and Federal agencies have 
an important role in providing additional support to help states fight 
this disease. I continue to recommend that the Federal role should 
focus heavily on contributing additional funding to state efforts, 
delivered through already-existing mechanisms and agencies (e.g., USDA 
and Interior). I do not believe any new programs or institutions are 
required.

                      IMPORTANCE OF STATE PRIMACY

    Earlier congressional initiatives on CWD, including legislation, 
direction to Federal agencies, and critically needed funding, have been 
helpful to many states. I am also pleased to report that those efforts 
have recognized the primacy of the States in policymaking authority 
with regard to wildlife management, both in general terms and 
specifically with respect to CWD. I thank you for that. The recognition 
of primacy remains critically important to the states.

                     HIGHLIGHTS OF COLORADO EFFORTS

    I would like to take a moment to highlight some of the actions 
taken by Colorado over the past 3 years in response to CWD. We have:
    <bullet> Coordinated with county and local governments and private 
landowners to reduce deer populations in areas of especially high 
prevalence.
    <bullet> Redirected significant funding and personnel to CWD 
control efforts. Since 2002, we have created and filled eight new 
positions focused on CWD control efforts, and reallocated $3 million in 
annual funding to those efforts. Those staffing and funding shifts have 
occurred within the limits of a largely flat budget picture and very 
tight personnel limits.
    <bullet> Increased coordination and cooperation between the 
Colorado Department of Agriculture (CDOA), Colorado's Department of 
Public Health and the Environment, CSU and the Division of Wildlife on 
CWD issues.
    <bullet> Initiated and completed important research on transmission 
mechanisms, rapid diagnostic approaches, live-animal testing, and 
outbreak dynamics that will be key in refining management and 
surveillance approaches for CWD.
    <bullet> Joined with CSU and CDOW to implement an extensive CWD 
surveillance and testing program for wild elk and deer. We were able to 
offer statewide testing of hunter-killed deer and elk while helping to 
CSU to validate a new rapid test that provided results in hours instead 
of months and allowed for large-volume testing. As a direct result of 
that experience, we understand that the new test is now being 
considered by the USDA and Canada for screening large numbers of cattle 
for Bovine Spongiform Encephalopathy (BSE).
    <bullet> Developed and implemented an electronic data capture 
system into our sample submission and collection system, thereby 
greatly improving both scientific data gathering and customer service 
aspects of our ongoing CWD surveillance program.
    <bullet> Involved volunteers from the Colorado Veterinary Medical 
Associations, Federal agencies, conservation organizations and the 
general public in an extensive surveillance and testing program for 
CWD.
    <bullet> With this cooperative and integrated effort, we have 
succeeded in testing more than 45,000 wild deer and elk for CWD over 
the last two hunting seasons with most results made available to the 
hunter within 2 weeks of receipt of the sample. The CDOA and the 
Division of Wildlife continue to coordinate, develop, and adopt 
comprehensive regulations that govern the importation, intrastate 
transportation and surveillance of captive deer and elk. As you can 
see, we already have in place programs to study, monitor, and manage 
CWD, in both captive and wild populations.

                        SPECIFIC COLORADO NEEDS

    Despite the unprecedented actions taken by Colorado and other 
states, it is clear much more work remains to be done. The needs of the 
Colorado Division of Wildlife, the Colorado Department of Agriculture 
(CDOA) and CSU are extensive and beyond the ability of our state to 
fully fund alone. We believe Federal funding for this work is a wise 
investment, not only for the wildlife resource, but for the thousands 
of jobs dependent on wildlife recreation. In Colorado alone, we 
estimate that three quarters of a billion dollars in economic activity 
is generated from hunting annually. That activity is especially 
important to rural towns and businesses.
    Colorado has identified several initiatives and programs that are 
in need of additional support if we are to be able to respond 
effectively to CWD in the future. And as I described earlier, the work 
we do in Colorado is often used by other states as well. Those needs 
include:

Upgrading Certified Labs
    $3.5 million to initiate the planning and construction of a new 
veterinary diagnostic lab on the CSU campus in Fort Collins with the 
potential to share laboratory space and equipment and co-house staff 
from the CDOW, the CDOA and the University Veterinary Diagnostic 
Laboratory. This new laboratory would help to address a number of 
regional animal health needs, including but not limited to CWD and 
other prion disease diagnostics. The CSU Board of Governors supports 
the new lab.
    $4 million to upgrade disposal processes at four CWD sampling/
testing facilities--in Grand Junction, Craig, Fort Collins and Rocky 
Ford. I would like to emphasize that these upgrades will be necessary 
if ``recommendations'' under consideration by Region 8 of the U.S. 
Environmental Protection Agency (EPA) are imposed. The rules would 
govern our CWD labs' waste streams and our methods of carcass disposal. 
We urge the EPA to continue proceeding slowly and cautiously, and only 
after consulting with external third party prion disease experts, other 
Federal agencies and all potentially affected states (including their 
wildlife, public health and agriculture agencies).

Research
    $2 million for research on therapeutics, live animal diagnostics, 
environmental detection, field diagnostics, genetic resistance and 
enhanced rapid laboratory tests.
    $5 million to relocate and upgrade our live animal research 
facility. The existing facility, which has been a key resource in 
understanding many important aspects of CWD, is located on property 
that is under a lease that will expire soon and is not likely to be 
renewed by the property owner. This project will provide several 
Colorado institutions the capability to continue a strong tradition of 
collaborative animal research, and is a much more cost-effective 
approach than creating a duplicate research effort elsewhere.

Surveillance, Monitoring and Management of Wild Deer and Elk
    Colorado needs assistance with our annual expenses directly related 
to CWD operations (expanded surveillance, testing, reporting, culling, 
carcass disposal, etc.). Expenditures are estimated to be approximately 
$3 million annually for the foreseeable future.

Surveillance, Monitoring and Management of Captive Deer and Elk Herds
    We estimate Colorado would require $150,000 for detecting, 
measuring and monitoring incidence of CWD in captive Colorado herds. We 
also anticipate needing as much as $1 million for reducing the 
incidence of CWD in captive herds (depopulation, indemnification, and 
carcass disposal) should additional infected herds be found.

Education and Outreach
    Finally, states like Colorado need support in the development of 
brochures, fact sheets, videos, training clinics, website enhancement, 
etc. for agency staff, hunters, veterinarians, meat processors, 
taxidermists, conservation groups and the general public.

                               CONCLUSION

    As I conclude, I feel it is important to note that the $3 million 
in funding redirected by the Colorado Division of Wildlife represent 
funds from our dwindling reserve balance. We are drawing on those 
reserve funds, in addition to diligently reprioritizing existing 
resources. Continuing to expend at this level will soon begin to 
compromise other important wildlife programs--such as species recovery, 
education and habitat protection.
    Colorado greatly appreciates the $240,000 in assistance received 
from USDA-APHIS-Veterinary Services this past year, as well as the 
promise of $70,000 in additional support for ongoing CWD research from 
USDI, but clearly the bulk of our work is still being funded from 
within our state, and as I've noted, those resources are quickly 
disappearing.
    In summary, I would like to emphasize that there are many 
opportunities for the Federal Government to assist States in CWD 
management and research. I urge congressional support for legislation 
and funding that will allow state wildlife agencies to effectively 
fight CWD. I also urge you to provide that assistance through the most 
streamlined and efficient mechanisms available, in particular already-
established grant programs in both the Department of Agriculture and 
the Department of the Interior.
    Thank you, Mr. Chairman, for the opportunity to share my thoughts 
with you and the Subcommittee. Colorado's deer and elk are among our 
state's most treasured natural resources. Your efforts to help us 
protect this valued resource are greatly appreciated.
    I would be pleased to answer any questions you might have.

                               __________
   Statement of Gary J. Taylor, Legislative Director, International 
       Association of Fish and Wildlife Agencies, Washington, DC

    Thank you, Mr. Chairman, for the opportunity to share with you the 
Association's perspectives on S. 1366 and the status of management of 
Chronic Wasting Disease (CWD) in general. I am Gary Taylor, Legislative 
Director of the Association, and accompanying me today is Dr. Tom 
Thorne, a wildlife veterinarian with the Wyoming Game and Fish 
Department, and Chair of the Association's Fish and Wildlife Health 
subcommittee on Chronic Wasting Disease. All 50 State fish and wildlife 
agencies are members of the Association. The Association looks forward 
to continuing to work with you in particular to provide the state and 
Federal agencies with the fiscal resources that they need to manage 
this disease. Further, we continue to urge that decisions with respect 
to management of this disease be well grounded in science. We continue 
to stress the need for comprehensive Federal agency cooperation and 
coordination to effectively manage this disease. And finally, we will 
share with you some information regarding the progress of CWD 
management as outlined in the implementation strategy deriving from the 
national plan.
    The International Association of Fish and Wildlife Agencies was 
founded in 1902 as a quasi-governmental organization of public agencies 
charged with the protection and management of North America's fish and 
wildlife resources. The Association's governmental members include the 
fish and wildlife agencies of the states, provinces, and Federal 
Governments of the United States, Canada, and Mexico. All 50 states are 
members. The Association has been a key organization in promoting sound 
resource management and strengthening Federal, state, and private 
cooperation in protecting and managing fish and wildlife and their 
habitats in the public interest.
    Federal and state agencies involved in this endeavor concur that, 
collectively, all the authorities that are necessary to manage this 
disease currently exist in law. While we therefore are not convinced of 
the need for further authorizing legislation, the Association wishes to 
commend Chairman Crapo, Sen. Allard, Sen. Feingold and others in 
particular for their diligence in ensuring that a coordinated Federal 
state effort is directed at this issue. What is most needed are 
adequate congressional appropriations to the Federal agencies involved 
for both their efforts and to pass through to the state fish and 
wildlife agencies, state universities and state agriculture 
departments, to manage CWD. The Association looks forward to working 
with you to increase appropriations for these purposes.
    Let me summarize where we are in management of this disease by 
reflecting on the good progress that has been made over the last almost 
2 years. About 2 years ago, the US Department of Agriculture and US 
Department of the Interior convened a Federal task force to coordinate 
CWD management. Under the chairmanship of Bobby Acord, Administrator, 
APHIS, and Steve Williams, Director, U.S. Fish Wildlife Service, they 
quickly recognized the need for and utility of adding state fish and 
wildlife agency representatives to the Task Force. That was 
expeditiously done and 6 working groups each comprised of Federal, 
state and university representatives, ultimately drafted the national 
plan that the Task Force released to the public (``A Plan for Assisting 
States, Federal Agencies, and Tribes in Managing Chronic Wasting 
Disease in Wildlife and Captive Cervids'') on June 26, 2002. The plan 
proposes goals and actions and serves as a blueprint for future 
activities to identify the extent of the disease and management actions 
needed to eliminate it or prevent its spread. Let me commend Bob Acord 
and Steve Williams for their patience and vigilance in overseeing it, 
and all participants for their dedication and diligence in completing 
the plan.
    Subsequently, an Implementation Document for said plan was produced 
on October 11, 2002 by a team of 3 State fish and wildlife agency 
representatives, 4 USDA, and 4 USDI representatives working with input 
from a myriad of wildlife management and animal health professionals 
from across the Nation. The Implementation Document steps down the 
goals in the national plan to action items, assigns agency 
responsibilities, and identifies timelines and budgets for each of 6 
categories of diagnostics, disease management, communications, 
research, surveillance, and information dissemination. This 
Implementation Plan effort chaired by Bruce Morrison, NE Game and Parks 
Commission, represents what we believe is the best and most current 
thinking with respect to what is necessary to successfully manage this 
disease. The budget recommendations were thoughtfully constructed under 
the constraint of ``reasonable and realistic''--they are not ``pie in 
the sky'' requests. These budget recommendations are the basis for the 
Association's appropriations request that we have asked each of our 
State Directors to encourage their Members of Congress to support.
    In April 2003, APHIS made available $4 Million in fiscal year 2003 
appropriated funds to the State fish and wildlife agencies for 
surveillance and management of CWD. Approximately $5 Million will 
similarly be made available from APHIS in fiscal year 2004. In 
designing the protocol for distribution of the funds, APHIS engaged Dr. 
John Fischer (Southeastern Cooperative Wildlife Disease Study), Dr. Tom 
Thorne (WY Game and Fish Department) and myself to design an 
appropriate and effective process. Collectively with APHIS we arrived 
at a formula that established 3 tiers of States: Tier 1 includes states 
with known occurrence of CWD in free ranging cervids; Tier 2 includes 
states adjacent to Tier 1 states or states with known CWD occurrence in 
farmed or captive cervids; and Tier 3 includes all other states. While 
one could argue the need for more money in one tier versus the other, 
we felt this was equitable, advanced our knowledge of presence/absence 
of the disease which is one of the most critical pieces of information 
we need, and assisted with the tremendous cost of managing the disease. 
The solution to getting more funds to states with CWD in free-ranging 
cervids, of course, is to grow the appropriated dollars, a goal to 
which we are all committed. Many thanks to Bob Acord and his staff at 
APHIS for both making these funds available and for enlisting the State 
fish and wildlife agencies in designing an equitable protocol that will 
expeditiously get money to them through a cooperative agreement.
    Let me now reflect a little bit on the need for continued, 
comprehensive Federal agency participation in a more coordinated effort 
to manage CWD based on sound science. Attention to all Transmissible 
Spongiform Encephalapothies (TSE) has increased dramatically in the 
last year, not just because of CWD, but most recently due to the 
diagnosis of Bovine Spongiform Encephalapothy (BSE) in a domestic cow 
in Washington, and last year in Canada. Unfortunately there is a great 
deal of misinformation and anxiety among the general public that ill-
founded Federal agency proposals may exacerbate.
    The Food and Drug Administration (FDA) has promulgated regulations 
for the rendering industry regarding the ``Use of Material from Deer 
and Elk in Animal Feed''. We believe these regulations unfortunately 
hinder animal health and wildlife management agency efforts to identify 
new areas where CWD occurs and simultaneously increase, rather than 
decrease, the likelihood of CWD positive carcasses entering the non-
ruminant animal food chain.
    The Association believes the regulations are an overreaction and 
simply cannot be supported with good science. CWD is not BSE. BSE is 
known to be a food-borne disease and consumption of material containing 
BSE--contaminated tissues is the only known natural mode of 
transmission of BSE. For this reason, the use of materials derived from 
any ruminant, including cattle, sheep, deer and elk, cannot be fed to 
ruminant animals according to 21CFR589.2000. By contrast, CWD is known 
to be transmitted laterally from affected deer and elk to susceptible 
deer and elk; and there is no evidence CWD is a food borne disease 
transmissible to non-ruminant animals.
    In addition to the inaccurate message it portrays, the Association 
is most concerned about the provision in the FDA regulation that would 
trigger a recall of feed or feed ingredients containing material from a 
CWD positive animal. This actually hinders our ability to find new 
areas where CWD occurs because it promotes avoidance of CWD testing, 
thereby increasing the chances for CWD to go undetected and for 
positive animals to enter the animal feed system. Experience has 
demonstrated that current CWD surveillance techniques can detect the 
disease in a new area while at relatively low prevalence but it takes 
higher prevalence before discovery if detection is delayed. Early 
detection offers greater opportunities to eliminate the disease and 
early detection depends on the cooperation of hunters, meat processors, 
taxidermists and renderers. We are concerned that the FDA regulations 
would hinder this type of cooperation.
    Finally, the Association continues to be concerned about some draft 
recommendations that the USEPA has been working on in their Region 8 
Office that could likewise seriously impede our ability to detect and 
manage CWD in wild and captive cervids. The Region 8 proposal would 
require certain standards and permits for treatment of wastewater from 
laboratory facilities handling animals or samples from animals with 
CWD. Labs wishing to continue or initiate work with CWD would incur 
huge costs to come into compliance or would have to cease their efforts 
related to CWD. Should this come to fruition, the Association is 
concerned that the next application of these standards and permit 
requirements would be to meat processors, taxidermists, and rendering 
plants. Once again, the Association believes this proposal is not 
science-based and seeks to impose a standard of ``no risk'' as opposed 
to acceptable ``low risk''. Action of this type would seriously affect 
the cooperation of hunters, meat processors, taxidermists and renderers 
and thereby impede our ability to detect the disease in a new area. 
Furthermore, these same standards do not now, nor is EPA proposing that 
they apply to scrapie, another TSE that has been around for centuries, 
and for several decades in the United States.
    We are hopeful that a recent EPA Record of Decision that 
characterizes as pesticides under FIFRA certain chemical agents used to 
neutralize prions ,thus allowing the EPA to grant exemptions from 
permit requirements for their use, will obviate the need for further 
regulation. We are cautiously comfortable with this approach but will 
continue to encourage greater coordination by EPA with the state fish 
and wildlife agencies, state departments of agriculture, and state 
departments of environmental quality.
    We are further encouraged that both FDA and EPA participated in the 
last state-Federal CWD task force meeting.
    On the issue of funding, Mr. Chairman, we all agree that more is 
needed, and the Association is committed to working with you and 
Congress to make that happen. With respect to fiscal year 2005, the 
Association and its member state fish and wildlife agencies are 
requesting $19.2 Million through appropriation to USDA-APHIS to be 
granted to the state fish and wildlife agencies for managing CWD in 
free-ranging cervids. This is approximately $10 Million more than in 
the President's request of approximately $19.5 million, half of which 
would likely go to management of CWD in captive cervid herds. We 
believe the needs in free-ranging cervids compels a higher appropriated 
amount.
    With respect to expeditiously getting money to the state fish and 
wildlife agencies, we will work with any Federal agency, but let me 
suggest the utility of using an agency that has an existing mechanism 
for getting grant money to the State fish and wildlife agencies as the 
most effective mechanism. As I indicated, USDA-APHIS has executed 
cooperative agreements for granting CWD dollars to the State fish and 
wildlife agencies and we support this mechanism for funds appropriated 
in the Agriculture Appropriations bill. In the Department of the 
Interior, the USFWS has a long-standing office, machinery and process 
for annually granting funds from several programs to state fish and 
wildlife agencies. It seems to us that using these existing grant 
mechanisms would be the most expeditious way to deliver funds to the 
State fish and wildlife agencies. We are appreciative that S. 1366 
recognizes the utility of using the existing grant mechanism in the 
USFWS for this purpose for any funds appropriated in the Interior and 
Related Agencies Appropriations bill.
    Let me now turn to the heart of this effort: its accomplishments. 
The most important perspective, of course, is how we are doing on the 
ground with respect to managing this disease. We are near completing 
the progress report on the first year's effort (October 2002-September 
2003) as described in the Implementation Strategy and I would like to 
share some information and perspectives from that with you.These 12 
months have seen considerable progress in research, surveillance, 
management and information dissemination concerning CWD, but 
significant additional work needs to be accomplished.
    The Implementation Strategy for the National CWD Plan identified 
budget needs, excluding funding for environmental compliance 
activities, of approximately $108 Million over a 3 year period. While a 
significant portion of these funds are expected to be congressional 
appropriations, state and tribal agencies have considerable financial 
commitment in managing this disease. Despite limited funding, there has 
been considerable interagency collaboration and accomplishment 
regarding CWD surveillance, management and research.
    Perhaps the quickest way to get a perspective on this is to look at 
some expenditures for fiscal year 2003. Details on all of these 
activities will be in the final progress report, expected to be in 
circulation shortly.
    In fiscal year 2003, the USDA agencies (APHIS,ARS,CSREES) expended 
approximately $18.5 Million. In the same fiscal year, the USDI agencies 
(NPS,USGS,USFWS) expended approximately $3.3 Million.
    According to a survey conducted by our Association, 44 of the 50 
state fish and wildlife agencies that responded spent a total of $15.2 
Million in state money and an additional $2.7 Million in Pittman-
Robertson funds, for a total of approximately $18 Million in fiscal 
year 2003.Surveillance and management represented the largest 
expenditures (over 50 percent of the total), followed by diagnostics 
(approximately another 20 percent).
    In a query of state livestock health agencies, 22 states responding 
indicated that their expenditures in fiscal year 2003 were 
approximately $2.0 Million.
    Thus, as you can see, there is a considerable commitment by both 
state and Federal agencies to manage this disease.
    We also have preliminary surveillance results from 2002-2003 to 
share with you. Every state is engaged in sampling free-ranging cervids 
and other ruminants.265 out of 88,935 white-tailed deer tested positive 
for CWD in that sampling season. 288 out of 15,937 mule deer tested 
positive and 39 out of 12,843 elk tested positive. Positive tests were 
not manifest in the other tested species.
    In conclusion, Mr. Chairman, the Association looks forward to 
working with you to continue to improve our capability to manage this 
disease. Dr. Thorne and I would be pleased to answer any questions. 
Thank you for the opportunity to share the Association's perspectives 
with you.
                               __________
   Statement of Dr. Jack O. Walther, President, American Veterinary 
                  Medical Association, Washington, DC

    Thank you Mr. Chairman and members of the Subcommittee for giving 
the American Veterinary Medical Association the opportunity to come 
before you today to speak in support of Senate Bill 1366.
    I am Dr. Jack Walther, President of the AVMA. I was born and raised 
on a small ranch near Reno and now practice in Elko, Nevada.
    The AVMA represents 86 percent of active veterinarians in the 
United States. Our membership consists of 70,000 members, most of whom 
have treated wildlife during their careers. In addition, hundreds of 
veterinarians have a primary professional focus in wildlife medicine. 
For the past 141 years, the AVMA has worked to advance the science and 
art of veterinary medicine. Veterinarians have a long history of 
positively impacting the health and well being of humans, animals and 
the environment. A few noteworthy members of my profession are Dr. 
Daniel Salmon, who first described salmonella in 1855, and Dr. Tracey 
McNamara, who first identified West Nile virus in the United States. 
Additionally, many of our members are public servants, such as Dr. 
Lester Crawford, Acting Commissioner of the Food and Drug 
Administration, and Dr. Ron DeHaven, Deputy Administrator of Veterinary 
Services at USDA. Veterinary public servants also include the Senator 
from my home State of Nevada, Senator Ensign, and the Senator from 
Colorado, Senator Allard. Today, many veterinarians are dedicating 
their professional skills to studying chronic wasting disease and other 
diseases that effect both animals and humans.
    CWD is one of many transmissible spongiform encephalopathies 
(TSEs). These are important diseases worldwide that are of particular 
concern to the veterinary community. The AVMA was proactive many years 
ago in addressing this important disease and issue. We developed a 
scientifically based position statement (attached) that supports the 
purposes of Senate Bill 1366.
    Our position statement commits the AVMA to:
    <bullet> disseminating scientific knowledge;
    <bullet> encouraging enhanced surveillance, monitoring, and control 
programs; and
    <bullet> encouraging governmental support for the development of 
new rapid diagnostic tests and control measures.
    We recognize and applaud the on-going efforts of the Department of 
Interior and the Department of Agriculture, and state and tribal 
agencies to implement the National Plan for Assisting States, Federal 
Agencies, and Tribes in Managing Chronic Wasting Disease in Wild and 
Captive Cervids. Much has been accomplished but more remains to be 
done. Additional funds must be allocated for state and tribal 
activities to ensure that the outcome of the comprehensive effort will 
be successful.
    At the same time, we urge the Subcommittee to remember the need to 
address not only CWD, but also many other diseases impacting both 
wildlife and livestock. Some of these diseases also affect both humans 
and animals, such as brucellosis in bison and elk in the Greater 
Yellowstone area, brucellosis in feral swine, and tuberculosis in wild 
deer.
    We live in a world of emerging disease threats. TSEs are one such 
threat. TSEs in animals include scrapie, bovine spongiform 
encephalopathy, and chronic wasting disease. They all pose serious 
risks to the health and welfare of animals. For states and communities 
that depend on income derived from outdoor activities, including 
hunting, these diseases pose serious economic risks.
    Colorado Governor Bill Owens recently told a panel of experts and 
key stakeholders from the public and private sectors that CWD ``affects 
every Coloradoan'' and has the potential to severely damage hunting, 
tourism and related industries as well as the state's unique natural 
resources.
    Additionally, the most recent statistics from the Wisconsin 
Department of Natural Resources estimate that hunters in Wisconsin 
spend $897,000,000 annually on supplies, lodging and other expenses.
    CWD can have a profound effect on agriculture, wildlife, and zoo 
management. Because CWD touches so many stakeholders, it is essential 
that programs addressing CWD be cooperative in nature. Nowhere is 
cooperation more vital than between agriculture and wildlife management 
agencies and groups at the state, national and international levels. 
Disease does not respect fence lines or state and international 
borders. CWD has affected deer and elk in Colorado, Illinois, Kansas, 
Minnesota, Montana, Nebraska, New Mexico, Oklahoma, South Dakota, Utah, 
Wisconsin, Wyoming, and in the Canadian provinces of Alberta and 
Saskatchewan.
    We must work together to find solutions. Effective solutions will 
require a philosophical and economic commitment to disease 
surveillance, to disease management, to diagnostics, and to research.
    The AVMA supports Section 4 of the bill that will provide grants to 
assist states in responding to CWD outbreaks in wild deer and elk. 
Additional funding to permit rapid and effective responses is 
absolutely essential. We also support Sections 3 and 5 of the bill that 
provide capacity-building grants to state and tribal wildlife 
management agencies. These grants will enable implementation of long-
term management strategies, including surveillance. Testing is needed 
in more states and tribal lands to determine whether the disease exists 
in new locations. If CWD does exist in other areas, additional testing 
is needed to define its prevalence, incidence, and distribution.
    The extent of testing and surveillance that is needed now, and for 
the foreseeable future, exceeds resources available to state 
departments of natural resources and tribal organizations. Financial 
support from the Federal Government will be required to comprehensibly 
and effectively test wild elk and deer populations.
    As an example, Governor Doyle of Wisconsin recently directed that 
$900,000 be spent to improve testing capacity for CWD in his state. 
This amount will support testing for research and disease management, 
but does not fund testing of hunter-harvested deer. Federal grants are 
needed to provide additional funds to enable the states to do more 
surveillance testing.
    The ``Chronic Wasting Disease Financial Assistance Act of 2003'' 
positively and rightfully recognizes and rewards states and tribal 
governments that have integrated CWD wildlife and agriculture programs. 
The AVMA supports this prioritization.
    One clause of Section 4 that deserves further study, however, is 
the language that assigns priority for funding to states on the basis 
of previous state expenditures on CWD management and research. We agree 
with the idea that states should be rewarded for being proactive in 
managing CWD. However, states with fewer available resources may be 
inadvertently precluded from receiving grants. They may have been 
unable to fund surveillance programs and, therefore, have not been able 
to detect CWD in their state. These states should be given grants to 
support surveillance programs to determine whether CWD exists within 
their borders. CWD could potentially affect the entire United States 
therefore, Congress must be sure that states and tribal governments 
with the greatest need receive a fair share of the available Federal 
moneys.
    Senate Bill 1366 goes a long way in preventing any further negative 
impact from CWD on animal health, the environment and our national 
economy. The leadership, staff and members of the American Veterinary 
Medical Association stand ready to assist in any way that we can in 
this matter.
    In keeping with our official policy, the AVMA has a strong presence 
and significant positive impact on professional and public education 
with respect to TSEs. We keep our members informed through two 
scientific journals, background materials (copy attached) on our Web 
site, and continuing education sessions presented during the 
Association's annual convention. In turn, veterinarians provide 
accurate and useful information to clients and the public. To further 
assist veterinarians in educating the public, the AVMA produced 
brochures dealing with CWD and BSE. More than 15,000 copies have been 
distributed. We regularly respond to public and media needs for 
information by issuing print, electronic, and audio news releases, and 
by participating in interviews with writers and broadcasters.
    TSEs present a serious and possibly growing threat to many of our 
nation's animal populations, as well as to state and local economies. 
Senate Bill 1366 is an important step toward successful control of CWD 
and we are extremely pleased and proud to have been afforded an 
opportunity to appear before you to speak in support of its passage.
                                 ______
                                 
     American Veterinary Medical Association Position Statement on 
                      Spongiform Encephalopathies

    Transmissible Spongiform Encephalopathies (TSEs) are important 
diseases worldwide. The AVMA will disseminate scientific knowledge of 
the etiology, epidemiology, prevention, and control of TSEs. AVMA 
supports and encourages enhanced national and state surveillance, 
monitoring, and control programs. The AVMA encourages the USDA and DHHS 
to support research for the development of new rapid diagnostic tests, 
control measures, cleaning and disinfecting procedures, and the 
zoonotic potential. The AVMA further encourages FDA to provide 
educational materials and to monitor and enforce the mammalian protein 
ban in ruminant feed. (EB 5/03)

                            CAUSATIVE AGENT

    Chronic wasting disease (CWD) belongs to the family of diseases 
known as the transmissible spongiform encephalopathies (TSE). The 
causative agent of CWD has not been fully characterized, but three 
possibilities have been proposed: an unconventional virus, a prion (a 
self-replicating protein), or a virino (incomplete virus) comprising 
naked nucleic acid protected by host proteins. The CWD agent does not 
invoke a detectable immune response or inflammatory reaction in its 
host. On the basis of what is known about other TSEs such as bovine 
spongiform encephalopathy and scrapie, it is assumed the causative 
agent of CWD is extremely resistant to sterilization processes.

                          NATURAL DISTRIBUTION

    An infectious, neurologic disease, CWD develops naturally in North 
American deer and elk. Species found to be affected include Rocky 
Mountain elk, mule deer, white-tailed deer, and black-tailed deer. 
Chronic wasting disease was first diagnosed in a Colorado captive elk 
research facility in 1967, and was identified as a TSE in 1978. It was 
found in the mid 1980's in free-ranging deer and elk in adjoining areas 
of Colorado and Wyoming. In May of 2001, CWD was identified in deer 
residing in the adjacent portion of Nebraska. Free-ranging cervids in 
Illinois, South Dakota, New Mexico, Utah, Wisconsin, and the Canadian 
province of Saskatchewan have also been affected. The first infected 
farmed herd was discovered in South Dakota in 1996. Chronic wasting 
disease has also been diagnosed in captive cervids in Colorado, Kansas, 
Minnesota, Montana, Nebraska, Oklahoma, Wisconsin and the Canadian 
provinces of Alberta and Saskatchewan.

                              TRANSMISSION

    Although many years of research have been conducted, the exact 
mechanism of transmission of CWD is still unknown. Currently 
transmission is believed to be lateral (animal to animal) and to take 
place through contact with or exchange of bodily fluids such as saliva, 
urine, feces, or placental tissue. Evidence also exists suggesting that 
vertical (mother to offspring) and environmental transmission is 
possible. Feed contamination is not considered to be a likely means of 
transmission; however, supplemental feeding may concentrate populations 
of cervids and facilitate animal-to-animal spread.

                    CLINICAL SIGNS OF CWD IN CERVIDS

    Most cases of CWD develop in adult animals. Chronic wasting disease 
causes progressive degeneration of the central nervous system. The most 
obvious and consistent clinical sign is progressive weight loss and 
dehydration. Other clinical signs include changes in temperament (e.g., 
loss of fear of humans, nervousness, or hyperexcitability), changes in 
behavior (teeth grinding, walking in repetitive patterns in pens), 
incoordination, polydipsia, polyuria, drooping of the head and ears, 
and excessive salivation. Incubation period is typically 18 to 24 
months, but can range up to 36 months. The health of affected animals 
typically deteriorates over a period of 12 months after infection. 
Chronic wasting disease is uniformly fatal.

                               DIAGNOSIS

    At the present time, CWD is diagnosed by postmortem microscopic 
examination of brain stem (particularly the obex portion) and lymphoid 
(lymph nodes and tonsils) tissues. Lesions of CWD resemble those of 
other spongiform encephalopathies. Immunohistochemistry (IHC) is very 
sensitive and specific to CWD and is used to confirm diagnosis by 
measuring accumulations of proteinase-resistant prion protein (PRPres) 
in brain tissues of infected deer and elk. Accumulations of proteinase-
resistant prior protein have not been found in uninfected cervids. 
Positive test results are not detected until at least 3 months after 
infection so negative results cannot confirm the absence of disease (it 
is possible that the animal is infected, but the stage of the disease 
is so early that the prion is not detectable). Colorado researchers 
have developed an antemortem (live animal) tonsillar biopsy test for 
CWD, which appears to work well for mule deer, but not for elk.

                               PREVENTION

    Because transmission mechanisms are still not well understood, it 
is difficult to recommend measures to prevent spread of the disease. 
Surveillance, culling, and testing are performed in areas where cases 
of CWD have been identified in an attempt to contain the disease within 
that endemic area. Unfortunately, no vaccine or preventatives exist and 
there is no evidence that immunity to CWD develops.

                               TREATMENT

    No treatment currently exists for cervids with CWD. The disease is 
uniformly fatal.

                           INFECTION CONTROL

    The United States Department of Agriculture's (USDA) Animal and 
Plant Health Inspection Service (APHIS) provides assistance to state 
officials in diagnosing CWD and in monitoring international and 
interstate movements of captive animals to help prevent its spread. 
Several state and national appropriations bills have been passed to 
provide funding for much needed research on CWD. In an effort to 
contain and eventually eradicate CWD, state and Federal agricultural 
and wildlife agencies are taking action including regulating and/or 
banning interstate movement of captive cervids, enforcing more 
stringent hunting policies, creating joint task forces, and developing 
state-specific guidelines.
    Members of the general public, hunters, and owners of cervid game 
farms must be informed of the dangers CWD poses to deer and elk 
populations, and take precautions necessary to reduce transmission. 
Animals appearing to be ill should be reported to wildlife officials. 
Deer feeding and baiting should be limited as this is an activity that 
brings deer into close contact with one another. Double fencing of 
captive herds will lessen contact with wild animals, and vigilant 
surveillance and testing of these herds is recommended. Hunters should 
avoid harvesting deer or elk that appear sick; should wear rubber 
gloves while field dressing animals; should remove all bone and fatty 
tissue from the meat of the animals; should minimize handling of the 
brain, spinal cord, spleen, tonsils, lymph nodes, or eyes; should avoid 
consuming any animal with positive test results for CWD; and should not 
remove anything but pure meat (muscle) from endemic sites.

       TRANSMISSIBLE SPONGIFORM ENCEPHALOPATHIES IN OTHER ANIMALS

    The family of transmissible spongiform encephalopathies (TSE) in 
animals includes scrapie, affecting sheep and goats; transmissible mink 
encephalopathy; bovine spongiform encephalopathy (BSE), commonly 
referred to as ``mad cow disease,'' affecting cattle; and, in humans, 
kuru, classic and variant Creutzfeldt-Jakob disease (CJD), Gerstmann-
Straussler syndrome, and fatal familial insomnia.
    At the present time there is no evidence that CWD is easily 
transmittable to livestock or other ruminants such as sheep, cattle, or 
goats under natural conditions. Livestock housed with infected deer or 
elk, or those having ingested brain tissue of infected animals, have 
not developed the disease. Chronic wasting disease has been 
experimentally transmitted to mice, ferrets, mink, goats, squirrel 
monkeys, and calves.

                     IMPLICATIONS OF CWD FOR HUMANS

    There is currently no evidence that CWD is naturally transmitted to 
humans, either through contact with affected animals or by eating meat 
from infected animals. The Centers for Disease Control and Prevention, 
however, has issued the following statement:

          ``It is generally prudent to avoid consuming food derived 
        from any animal with evidence of a TSE. To date, there is no 
        evidence that CWD has been transmitted or can be transmitted to 
        humans under natural conditions. However, there is not yet 
        strong evidence that such transmissions could not occur. To 
        further assess the possibility that the CWD agent might 
        occasionally cause disease in humans, additional epidemiologic 
        and laboratory studies could be helpful. Such studies include 
        molecular characterization and strain typing of the agents 
        causing CWD in deer and elk and CJD in potentially exposed 
        patients. Ongoing national surveillance for CJD and other 
        neurologic cases will remain important for continuing to assess 
        the risk, if any, of CWD transmission to humans.''

    Routine precautions should be taken when handling carcasses of 
animals that may be infected.
                               __________
  Statement of Gary J. Wolfe, Ph.D., Project Leader, Chronic Wasting 
                     Disease Alliance, Missoula, MT

    Good morning Mr. Chairman and distinguished members of the 
Subcommittee. My name is Gary Wolfe and I represent the Chronic Wasting 
Disease Alliance . . . a coalition of 15 organizations and businesses 
who are deeply concerned about Chronic Wasting Disease (CWD). We 
sincerely appreciate the opportunity to appear before you today to 
share our concerns regarding CWD, an issue of considerable importance 
to sportsmen across the country. Thank you for giving this serious 
wildlife disease issue your attention.

                              CWD ALLIANCE

    I would like to take a moment to share with you a brief history of 
the CWD Alliance, as it illustrates the significant concern CWD has 
generated among America's sportsmen, conservationists and the outdoor 
industry.
    In January 2002, the Boone and Crockett Club, Mule Deer Foundation 
and Rocky Mountain Elk Foundation (three of the nation's leading 
sportsmen's-based, nonprofit wildlife conservation organizations) were 
becoming increasingly concerned about the impact CWD was having, and 
may continue to have, on North America's wild deer and elk populations. 
They were also concerned about the impact this disease may have upon 
millions of hunters' desire and opportunity to hunt deer and elk each 
fall, and upon their confidence to put healthful wild venison on their 
families' tables. In response to these concerns, these three 
organizations initiated a collaborative project . . . the Chronic 
Wasting Disease Alliance.
    During the ensuing 2 years, other organizations and businesses 
joined the Alliance's effort. The CWD Alliance currently consists of 15 
partners and sponsors: Boone and Crockett Club, Mule Deer Foundation, 
Rocky Mountain Elk Foundation, National Shooting Sports Foundation, 
Pope and Young Club, Quality Deer Management Association, Wildlife 
Management Institute, Bowhunting Preservation Alliance, Izaak Walton 
League of America, Camp Fire Conservation Fund, Dallas Safari Club, 
Whitetails Unlimited, Cabela's (sponsor), Bio-Rad Laboratories 
(sponsor), and IDEXX Laboratories (sponsor).
    The mission of the CWD Alliance is to promote responsible and 
accurate communications regarding CWD, and to support strategies that 
effectively control CWD to minimize its impact on wild, free-ranging 
deer and elk populations.
    Alliance partners pool resources, share information and cooperate 
on projects and activities to positively impact the CWD issue. The 
Alliance recognizes that appropriate public information and education 
are vital to the resolution of the CWD dilemma. In an effort to promote 
responsible, timely and accurate communications the Alliance has:
    <bullet> Developed and maintained a comprehensive, informative CWD 
website to facilitate the public's access to basic CWD information, 
breaking CWD news, scientific literature, recommendations from 
professional wildlife management agencies, and links to other CWD 
information sources. The website (www.cwd-info.org) was launched in 
July 2002, and has received more than 257,000 visits.
    <bullet> Co-sponsored and/or participated in CWD conferences and 
seminars in numerous locals throughout North America.
    <bullet> Served as a resource for media sources seeking credible 
information about CWD.
    <bullet> Published responsible and accurate CWD articles in their 
respective organization's member magazines.
    <bullet> Collaborated on the development of a CWD information and 
training video for hunters.
    <bullet> Participated on several interdisciplinary, multi-agency 
CWD task forces and committees.
    <bullet> Participated as a partner with state and Federal agencies 
to assist with implementing the ``Communications'' section of the Plan 
for Assisting States, Federal Agencies and Tribes in Managing Chronic 
Wasting Disease in Wild and Captive Cervids.
    Alliance partners and sponsors collectively contributed more than 
$102,000 during 2002-2003 to support the CWD Alliance project, and have 
pledged and additional $83,000 for the Alliance's 2004 activities.

                         NATIONAL CWD STRATEGY

    The CWD Alliance has actively monitored the responses of the 
various state and Federal agencies to CWD, and has participated in 
numerous planning activities and task force meetings. We believe there 
has been an exceptional level of interagency coordination and 
cooperation in responding to this wildlife disease crisis.
    In June 2002, a task force of Federal agencies and state wildlife 
management agencies completed the Plan for Assisting States, Federal 
Agencies and Tribes in Managing Chronic Wasting Disease in Wild and 
Captive Cervids (National CWD Plan) and presented it to Congress. The 
National CWD Plan lays out an aggressive, coordinated interagency 
strategy for managing CWD, and was followed-up by an Implementation 
Document that identified specific actions for addressing CWD. State 
wildlife agencies, universities, and Federal agencies have utilized the 
Implementation Document to guide their response to CWD and have 
directed funds to the ongoing battle against this disease.
    The Implementation Document identified budget needs to address CWD, 
excluding funding for environmental compliance activities, of 
$108,360,000 over a 3-year period. The majority of this funding was 
identified to come from congressional appropriations, while the 
remainder would be redirected funds from various Federal, state, and 
tribal agencies.
    We appreciate the funding Congress has authorized for CWD, and the 
support APHIS and the USGS have provided to the state wildlife 
management agencies. Considerable progress has been made, especially in 
terms of surveillance and management of CWD in free-ranging cervids, 
research, dissemination of information, and publication by APHIS of the 
proposed rules on Chronic Wasting Disease (CWD) Herd Certification 
Program and Interstate Movement of Captive Deer and Elk. However, there 
has not been adequate Federal funding for full implementation of the 
National CWD Plan.

                         HOW CONGRESS CAN HELP

    Significant progress has been made addressing the challenges of 
managing CWD, but much more work is needed. State wildlife management 
agencies are on the front line of CWD management, surveillance, and 
research; and are the agencies in greatest need of financial support 
for CWD activities.
    State wildlife agencies have redirected critical wildlife 
management funds from other programs to address CWD issues. The 
International Association of Fish and Wildlife Agencies (IAFWA) reports 
that state wildlife agencies collectively expended approximately $15.2M 
on CWD in fiscal year 2003 (Progress Report on the Implementation 
Document for the Plan for Assisting States, Federal Agencies and Tribes 
in Managing Chronic Wasting Disease in Wild Cervids, October 2002-
September 2003). The CWD Alliance is especially concerned that this 
redirection of limited state wildlife agency funds is not adequate to 
address the CWD issue, and will have negative impacts on other 
important wildlife management and conservation programs.
    We would like to offer the following general recommendations 
regarding how Congress can support state wildlife management agencies, 
state agricultural agencies, tribal governments and Federal agencies in 
the control of CWD:
    <bullet> Expanded funding for the National CWD Plan is a top 
priority. The International Association of Fish and Wildlife Agencies 
(IAFWA) recently identified $34.15M of CWD funding needs for the fiscal 
year 2005 Federal budget (Appendix A). We encourage Congress to 
seriously consider IAFWA's recommendations when determining 
appropriations for the National CWD Plan in the fiscal year 2005 
Federal budget, especially the suggested $19.2M of grants to assist 
states and tribes.
    <bullet> Additional legislation granting agencies authority to 
address CWD or creating additional bureaucracy is not needed. 
Successful control and eradication of CWD will depend upon a 
cooperative approach and a well-coordinated effort between Federal and 
state agencies. The respective Federal and state agencies have the 
necessary authority and mechanisms to address this issue. They have 
been doing an exemplary job of coordinating and collaborating with each 
other; an excellent strategy has been identified via the National CWD 
Plan; and specific action plans have been identified in the 
Implementation Document. Congress can best assist through the 
appropriations process.
    <bullet> Any CWD legislation should recognize and reinforce the 
principle that state wildlife agencies have the primary responsibility 
for managing wild cervid populations. We encourage Congress to rely 
heavily on the recommendations of the state wildlife agencies when 
considering CWD legislation.
    <bullet> We would like to thank Senators Allard, Feingold and Crapo 
for introducing S. 1366, the Chronic Wasting Disease Financial 
Assistance Act of 2003. It addresses many of the concerns we have 
regarding adequate funding for the National CWD Plan, and is consistent 
with our general recommendations regarding how Congress can help state 
and tribal wildlife management agencies deal with CWD. Specifically we:
    <bullet> Are pleased that S. 1366 recognizes that ``The States 
retain undisputed primacy and policymaking authority with regard to 
wildlife management . . .'' (section 2(b)(1)).
    <bullet> Support ``grants to assist States in developing and 
implementing long term management strategies to address chronic wasting 
disease in wild cervids'' (section 3(a)), and ``in responding to 
chronic wasting disease outbreaks in wild cervids'' (section 4(a)).
    <bullet> Support ``grants to tribal wildlife management agencies to 
assist Indian tribes in developing and implementing long term 
management strategies to address chronic wasting disease in wild 
cervids'' (section 5(a)).
    <bullet> Believe the $20.5M of grants to states and tribes 
authorized by S. 1366 is urgently needed by the states, and is 
necessary to adequately implement the National CWD Plan.
    <bullet> Request that any CWD funding that is administered through 
the Federal Assistance Program of the United States Fish and Wildlife 
Service (section 6) not be a redirection of existing Pitman-Robertson 
Federal Aid funds to CWD, but newly appropriated money.
    In conclusion, America's wild deer and elk populations are 
priceless treasures. They are a source of beauty, inspiration and 
recreation for millions of Americans, and they infuse billions of 
dollars annually into our national economy. Their health and vitality 
must be protected!
    Once again, thank you for the opportunity to share our concerns and 
recommendations on this very important wildlife disease issue.
                                 ______
                                 
  Appendix A.--Assistance to States, Federal Agencies, and Tribes in 
     Managing Chronic Wasting Disease in Wild and Captive cervids 
    (Recommendations from the International Association of Fish and 
                   Wildlife Agencies (March 3, 2004))

    States, Federal agencies, and Tribes are addressing chronic wasting 
disease (CWD) according to the 2002 Plan for Assisting States, Federal 
Agencies and Tribes in Managing Chronic Wasting Disease in Wild and 
Captive Cervids (National CWD Plan) and the Implementation Document for 
the National CWD Plan. Considerable progress has been made, especially 
in terms of surveillance and management of CWD in free-ranging cervids, 
research, dissemination of information, and publication by APHIS of the 
proposed rules on Chronic Wasting Disease (CWD) Herd Certification 
Program and Interstate Movement of Captive Deer and Elk. To date, there 
has been no consistent or unified Federal funding for full 
implementation of the National Plan. However, USDA/APHIS/Veterinary 
Services has provided funding toward control of CWD in the farmed 
cervid industry and to the 50 state wildlife management agencies for 
public education, as well as surveillance and management of CWD in wild 
deer and elk. USDI agencies have redirected limited resources toward 
their own CWD research and monitoring programs, and USGS has provided a 
small amount of funds to several States for CWD monitoring. Because of 
inadequate funding to all State and Federal agencies, important CWD-
related activities are being implemented incrementally and with limited 
coordination. State wildlife management agencies are on the front line 
of CWD management, surveillance, and research and are the agencies in 
greatest need of financial support for CWD activities. To date, APHIS 
grants for CWD work have been the most significant and helpful sources 
of Federal assistance to State Wildlife Management Agencies.
    Disease Management.--Goals are prevention, elimination, maintenance 
or reduction of established prevalence, and/or containment of CWD, 
depending onsite-specific CWD status. Needs are $9M (through USDA-
APHIS) for States, $2M for USDA, and $3.5M for USDI, including enhanced 
funding through USGS-BRD for the Southeastern Cooperative Wildlife 
Disease Study (SCWDS).
    Surveillance.--Goals are development of sampling plans, early 
detection, determination of distribution and prevalence of CWD in free-
ranging cervids and epidemiologic investigations in the case of CWD in 
farmed cervids. Funding needs are $7M (through USDA-APHIS) for States, 
$1M for USDA, and $2.25M for USDI, including enhanced funding through 
USGS-BRD for SCWDS.
    Research.--Goals are rapid diagnostic tests, better understanding 
of epidemiology and pathogenesis of CWD, management tools, and 
understanding human dimensions related to CWD. Needs are $3.2M (through 
USDA) for States, $1.5M for USDA, and $3.5M for USDI.
    Diagnostics.--Objectives are to establish sufficient laboratory 
capacity for testing, continue use of the immunohistochemistry 
technique as the gold standard, assure diagnostic sample quality, and 
assist with validation and application of high throughput screening 
tests. Funding needs are $625K for USDA to assist State laboratories 
and validate new tests and $50K to USDI for training assistance.
    Communications.--Objectives are to increase awareness and educate 
target audiences, provide timely scientific information on current 
knowledge and advances in CWD management, and provide scientific and 
technical training to agency personnel regarding CWD. State and Federal 
(USDI) needs are approximately $105K and $400K, respectively.

                     FISCAL YEAR 2005 NEEDS TOTALS

    States (through appropriations to USDA) for free ranging cervids: 
$19.2M, USDA: $5.1M, USDI: $9.85M

   Statement of P. Scott Hassett, Secretary, Wisconsin Department of 
 Natural Resources and Rod Nilsestuen, Secretary, Wisconsin Department 
             of Agriculture, Trade, and Consumer Protection

    Thank you for the opportunity to present the following comments on 
Wisconsin's experience with Chronic Wasting Disease (CWD). We wish to 
express our appreciation for the $18.6 million Congress allocated in 
fiscal year 2004 funding to control CWD nationwide, especially the 
$1.75 dedicated to CWD control work in Wisconsin. We value our Federal 
partnership, and especially the vigilance of our Wisconsin 
congressional delegation in getting the Federal Government to help 
Wisconsin in our CWD management efforts.
    Since the discovery of CWD in Wisconsin in February 2002, state 
government has done everything in its power to find out where this 
disease is located within our state and take actions to minimize the 
long term damage it might cause. Wisconsin has formed an Interagency 
CWD Response Team, consisting of representatives from the Wisconsin 
Departments of Agriculture, Trade and Consumer Protection (DATCP), 
Natural Resources (DNR) and Health and Family Services (DHFS). All 
three agencies have already directed substantial resources to identify 
the scope and magnitude of the problem and begin treatment--over $1 
million for DATCP and over $16 million for DNR through December 31, 
2003.

                          FARMED DEER AND ELK

    In Wisconsin, DATCP manages CWD control efforts for Wisconsin's 
farm-raised deer population. As of October 20, 2003, DATCP has 827 
registered cervid farms containing about 35,000 cervids.
    DATCP's CWD monitoring program requires individual animal 
identification, detailed recordkeeping for all animals that join or 
leave the herd, testing, and reporting escapes. Herds must be enrolled 
if live animals move off the farm for any purpose other than slaughter. 
There are 550 herds enrolled in the monitoring program, amounting to 67 
percent of registered farms. Many of the remaining farms are hunting 
preserves, which cannot enroll because of difficulties in keeping 
animal censuses, or hobby farms that do not move live animals. 
Wisconsin's farm-raised deer program also includes:
    Animal Movement/Import: Deer and elk moving within Wisconsin must 
be enrolled in the monitoring program and meet tuberculosis testing 
requirements. Deer and elk entering Wisconsin must come from herds 
under CWD surveillance/monitoring for 5 years, and must meet 
brucellosis and tuberculosis testing requirements.
    Testing: All deer and elk 16 months or older that die, go to 
slaughter, or are killed must be tested for CWD, regardless of whether 
they are in monitored herds. Since 1999 6,736 farm raised cervids have 
been tested. The vast majority of those have been since February 2002.
    CWD Positive Animals: To date, DATCP has found 15 CWD-positive 
whitetails on farms and one CWD-positive elk. These have been in four 
herds:
    <bullet> Buckhorn Flats, a Portage County hunting preserve, has had 
seven positive whitetails. DATCP has ordered the herd killed for 
testing, pending a decision by an administrative law judge.
    <bullet> A Walworth County breeding herd received whitetails from 
one of the same sources as Buckhorn Flats. Early testing showed two 
positives; when DATCP killed the herd, they found four more.
    <bullet> A Manitowoc County farm received elk from a Minnesota farm 
later found to be infected. A routine test turned up one positive. 
DATCP killed the herd for testing and found no more.
    <bullet> A Sauk County hobby farm had only four whitetails, one of 
which tested positive in a routine test.
    Quarantines: DATCP has 16 quarantines in place: seven related to 
the Portage County positives; two where herds received elk from 
infected Minnesota herds; one related to the Sauk County farm; and six 
because they are within the DNR's disease eradication zone.
    We support USDA's effort to establish a nation-wide CWD herd 
certification program. The plan has set a goal of eradicating CWD 
within the farmed cervid herds in the U.S. This is an important goal 
and will put Wisconsin producers on equal footing with other producers 
around the country and keep our U.S. producers competitive 
internationally. We hope the committee will do what it can to assist 
this important effort.

                           WILD DEER AND ELK

    Wisconsin wildlife biologists began testing wild deer for CWD in 
1999 and news of CWD in western wild and farmed deer and elk herds 
became more common. In February 2002 Wisconsin discovered its first 
confirmed cases on CWD when three deer harvested in southern Wisconsin 
tested positive for CWD.
    To date, 317 CWD positive wild white-tailed deer have been found in 
Wisconsin, including 109 positives from the 2003-2004 hunting/sampling 
seasons. Two apparently separate foci of CWD have been identified--the 
approximately 800-sq. mile affected area in southwestern Wisconsin and 
an area spanning 3 counties in the southeastern Wisconsin that border 
the Illinois' CWD affected counties.
    Over the past 2 years, our objectives have included:
    <bullet> doing a comprehensive surveillance effort to determine 
where CWD was found in our wild herds;
    <bullet> undertaking and assisting research to better understand 
the ecology of this disease;
    <bullet> find better diagnostics;
    <bullet> educate Wisconsin citizens about CWD; and
    <bullet> prevent the spread of the disease from infected areas by 
reducing the size of the infected deer herds.

Surveillance
    Over the past 2 years, we have tested over 56,000 wild deer in 
Wisconsin. In our statewide surveillance efforts we sampled with 
sufficient intensity in most of our counties to give us a 90 percent 
probability of detecting CWD if the disease was present at 1 percent 
level of prevalence. We have sampled more intensively in and near our 
known infection areas to give us information on whether prevalence is 
changing and better define the geographic boundaries of the infection.
    As part of our surveillance efforts, we worked very hard to develop 
informational support systems that provides hunters with specific 
information on the testing results for the deer they bring in. A 
tracking program was developed that identifies each deer and the sample 
from that deer with a unique bar coded number. The testing results are 
then shared with the hunter, as soon as those results are available 
from the laboratory. Both the surveillance program and the system to 
track results from individual deer have been extremely valuable in 
determining where CWD is located in the wild herd, and in providing 
information many Wisconsin's deer hunters want. This information has 
been critical in the development of a plan for addressing CWD in 
Wisconsin, and in helping to assure the continuation of deer hunting as 
an important tradition and wildlife management tool.

Research
    Wisconsin continues to invest into CWD research programs, focused 
on studies that will aid in management of CWD. Partnerships have been 
established with University of Wisconsin, the USGS-National Wildlife 
Health Center, USDA-ARS, and others, with a strong emphasis on sharing 
Wisconsin CWD data and archived deer tissues. Recent findings of 
significance to our management program include (1) evidence that 
prevalence of CWD is significantly related to density of deer, and (2) 
that there is significant spatial variation in deer harvest rates in 
the Disease Eradication Zone. We will be undertaking Human Dimension 
research this summer to better understand landowner attitudes regarding 
CWD in the infected areas. Wisconsin research played a key role in the 
USDA approval of an additional CWD diagnostic test in 2003.

Disease management
    The best available research suggests that without management CWD 
will spread steadily outward from infected areas and eventually impact 
most of Wisconsin. In infected deer populations, the disease is 
projected to significantly reduce the deer population as the prevalence 
of the disease steadily increases. White-tailed deer are highly 
regarded in Wisconsin and deeply ingrained in our way of life. An 
estimated $1 billion dollars of economic activity is generated from 
deer associated recreation. CWD represents a long-term threat to deer-
related activities.
    In addition to CWD impacts on the abundance and health of wild deer 
and elk herds, there are serious human health considerations to be 
considered. We are grateful that no direct human health problems have 
yet been attributed to CWD. We no links are ever found. However, we are 
confronted with the reality that World Health Organization and Center 
for Disease Control recommend that CWD-positive deer not be consumed. 
As CWD prevalence increases and the size of the infected areas grow, an 
increasing number of deer taken by hunters will be unsuitable for 
consumption. There are very serious implications for wild herd 
population control, as well as testing services.
    CWD is a difficult disease to control. It is especially challenging 
when it is found in wild herds. Our effort has required a tremendous 
commitment of staff resources, expertise and funding. We've reallocated 
significant resources from other wildlife management activities and 
projects in Wisconsin over the past couple years. These reallocated 
resources have been combined with funding received through the state 
budget process, and the additional funding that has been made available 
in the Federal budget to offset some of the costs associated with this 
intensive effort to manage CWD.

                            WISCONSIN NEEDS

    The work we do in Wisconsin is part of a national effort to control 
this disease. As you can see, we have been busy in Wisconsin and still 
have much to do. In spite of no official recognition of the National 
CWD plan, much has been accomplished. We request your help in moving 
the Federal Government to fully embrace the National CWD Plan and more 
importantly provide the appropriations needed to implement the plan and 
effectively manage the disease.
    It is crucial for the Federal Government to provide coordination 
and assistance on a national level with research, surveillance, disease 
management, diagnostic testing, technology, communications, education, 
and funding for state CWD programs. Federal agencies should provide 
tools and financial assistance to states and help develop consistent, 
unified approaches to CWD management.
    Since May 2002, the U.S. Department of Agriculture (USDA) and 
Department of Interior (DOI), along with state and tribal wildlife 
management and agriculture agencies, have been working together on a 
National CWD Plan. A CWD Task Force was formed to ensure that Federal 
and state agencies cooperate in the development and implementation of 
an effective national CWD program.
    Today--nearly 2 years later--we are still waiting for the release 
of the proposal. We seek your assistance in encouraging the Office of 
Management and Budget (OMB) to release the National CWD Plan. A 
comprehensive, multi-agency, long-term plan to fight CWD is needed with 
support from the highest levels of the Federal Government. Issues 
needing our collective attention include:
    <bullet> development of a national data base to track and store 
information about CWD;
    <bullet> expansion of Federal ability to test for CWD;
    <bullet> distribution of Federal dollars to help states data entry, 
testing and control actions; and
    <bullet> acceleration of state and other grants for the study of 
the disease
    <bullet> incentives for private landowners to control the disease 
in wild herds using their land
    Over the next few years, we estimate that it will cost about $7 
million annually on an on-going basis in order for the DNR to carry out 
the wild herd work needed to meet the goals of the CWD management plan. 
These costs include staff resources that are being reallocated from 
other areas, and there are some additional state and Federal funds that 
have been made available. However, there are significant gaps in the 
level of resources available for specific work in comparison to what is 
needed on an on-going basis. This includes, for example, funding to 
carry out the surveillance work, costs associated with herd reduction 
efforts in those areas where CWD has been detected, and other costs 
associated with disposal of unwanted carcasses and various research 
efforts.
    Both nationally and in Wisconsin, much still needs to be done. We 
support S. 1036 because it provides a comprehensive blueprint to 
address many of these issues, as it authorizes funds for CWD management 
in both wild and farm-raised deer. In addition, we support the 
following:
    <bullet> Add that private labs must report to state any positives.
    <bullet> Sec. 202 should read ``farm-raised'' deer and elk
    <bullet> Narrow the ``captive wildlife'' reference to ``captive 
cervid'' under Title II. Sec. 202 (2). All references to captive should 
probably read ``farm-raised''--or perhaps ``farmed and captive'' to 
cover farms, zoos, roadside exhibitors, cervids captured for research 
or translocation, etc.
    <bullet> For farm raised herd management, Wisconsin has sought 
funds to make exposed--not just infected--captive deer herds eligible 
for indemnity; subsidize sampling costs for CWD tests; and for a one-
time buyout for herds in eradication zones.
    With the discovery of CWD in the wild and captive herds of 
Wisconsin and other states, the farm raised cervid industry has lost 
substantial value. In addition, new regulatory programs are proving to 
costly to many herd owners. Unfortunately, the nature of the programs 
and the disease make it very difficult and costly to go out-of-business 
and there is little incentive to do it legally. In order to prevent 
deer, with unknown health status, from being released into the wild or 
moved without record in commerce, the Federal Government should provide 
money for herd destruction and disposal costs to herd owners wanting to 
cease operating.
    Additional Federal funds could also be used to help cervid farmers 
like Wes Ramage of Oakfield, Wisconsin. Officials in Pennsylvania and 
Colorado denied Mr. Wes Ramage's request to ship elk to those states--
despite certification from Wisconsin officials that he had complied 
with Wisconsin's CWD program for farm-raised cervidae--because those 
states have stricter fencing requirements. Additional funds would help 
Mr. Ramage pay for extra fencing on his property so that other states 
would accept his elk.
    Thank you again for your time and efforts on behalf of Wisconsin. 
We appreciate your consideration of this request to join with us as 
partners to ensure the health of our deer herd and the Wisconsin family 
hunting tradition that depends on it. We look forward to continuing 
this partnership as we work together to develop the strongest possible 
Federal CWD program for Wisconsin and the Nation.
                               __________

Statement of Richard F. Bechtel, Senior Legislative Representative for 
             Wildlife Policy, National Wildlife Federation

    Thank you for the opportunity for the National Wildlife Federation, 
the Nation's largest conservation advocacy and education organization, 
to submit testimony in support of S. 1366, the Chronic Wasting Disease 
Financial Assistance Act of 2003. NWF can not emphasize enough the 
bill's central purpose of providing increased funding for State fish 
and wildlife agencies to manage and coontrol the disease.
    Chronic Wasting Disease is a significant threat to our free-ranging 
deer and elk populations, it heaps expenses upon affected State fish 
and wildlife departments and is forcing the departments to divert 
funding from important programs to surveillance, management, and 
research of the disease. Where Chronic Wasting Disease occurs, it can 
lower numbers of hunters, depress critical license revenues, and reduce 
the economic activity so vital to rural communities that rely upon 
economic contributions of hunters. Control and eradication of the 
disease is extremely important as over 13 million people hunt each year 
and spend over $20 billion dollars pursuing the activity.
    Chronic Wasting Disease (CWD) has been a priority for NWF since the 
early 1990s and became a major priority when the disease moved across 
the Mississippi River into the wild and captive herds of Wisconsin. 
Although the exact means of transmission is still unknown, evidence 
indicates a major route of transmission is from captive to wild herds. 
The recent spread of the disease to South Korea clearly illustrates the 
danger posed by moving captive cervids within the country and overseas. 
While control of captive herds may be difficult, management of the 
disease is even more difficult and expensive when it moves to wild 
herds.

               NATIONAL WILDLIFE FEDERATION POLICY ON CWD

    The National Wildlife Federation advocates disease management of 
free-ranging wildlife populations by wildlife professionals working 
under the authorities of State and Federal wildlife agencies. NWF 
appreciates S. 1366's strong recognition of the primary authority of 
States and tribes in management of fish and wildlife resources. NWF 
supports Federal funding for research and management of wildlife 
through the Department of the Interior and for research and management 
of domestic livestock through the Department of Agriculture. However, 
NWF is especially heartened by the Animal and Plant Health Inspection 
Service's realization that CWD must be addressed in both captive and 
wild populations of cervids and its decision to pass through funding 
for management and surveillance of CWD in wildlife to State fish and 
wildlife agencies. Of all Federal CWD funding, this pass through has 
been of the most help to States in their struggle to manage and 
eradicate the disease. While Federal and State agencies believ they do 
not need additional authority to address Chronic Wasting Disease, S. 
1366 might be amended to codify the memoranda of agreement process that 
APHIS has implemented to pass these funds through to State fish and 
wildlife agencies. However, the funding pass thorough mechanism 
proposed by APHIS cannot be used to leverage or dictate management to 
State or Federal wildlife agencies. It must be provided to the 
appropriate agencies with no management strings atached that would lead 
to livestock style test and slaughter management of our Nation's 
incredible wildlife resource.
    NWF opposes cervid and big game ranches because of the increased 
risk of disease transmission. NWF advocates physical barriers such as 
double-fencing be erected and be maintained at trophy big game ranches 
to absolutely preclude physical contact between wild and contained 
animals as one mode of transmission is lateral from animal to animal. 
Mechanisms to clearly identify and track captive deer and elk, such as 
high visibility ear tags with registered numbers, are also necessary. 
NWF also advocates strict limits on interstate transport of cervids and 
other big game ranched animals until effective tests are developed to 
certify the health of transported animals and mandatory testing of 
those animals prior to transportation. Preventing the spread on CWD is 
a small political and financial investment in our Nation's wildlife. 
There is no known treatment or vaccine against CWD and this issue is a 
classic case of ``an ounce of prevention is worth more than a pound of 
cure.'' Curing or eradicating CWD is impossible; preventing its spread 
is a much more achievable goal.
    The proposed rule, ``Chronic Wasting Disease Herd Certification 
Program and Interstate Movement of Captive Deer and Elk,'' which APHIS 
recently circulated for comment is a good first step in preventing CWD 
in captive herds and poreventing transmission of the disease from 
captive to wild herds. However, the proposed rule contains several 
provisions, which breach the protection the regulation is designed to 
provide, especially its voluntary nature, its grandfather provisions, 
and its allowance of interstate transport of captive cervids before 
herds achieve 5-year certification.
    In conclusion, the National Wildlife Federation supports the 
increased funding that enactment of S. 1366 would authorize for State 
fish and wildlife agencies. NWF also endorses CWD appropriations at the 
levels recommended by the International Association of Fish and 
Wildlife Agencies to implement the National Plan for Assisting States, 
Federal Agencies, and Tribes in Managing Chronic Wasting Disease in 
Wildlife and Captive Cervids. NWF especially wants to thank the 
sponsors of S. 1366 and the members of the subcommitttee for providing 
critically needed oversight of the coordination and funding needs of 
Federal Chronic Wasting Disease programs. NWF also promises to work 
with the sponsors and members of the subcommittee to seek appropriation 
at these levels for State and tribal fish and wildlife agencies.

[GRAPHIC] [TIFF OMITTED] T4603.001

[GRAPHIC] [TIFF OMITTED] T4603.002

[GRAPHIC] [TIFF OMITTED] T4603.003

[GRAPHIC] [TIFF OMITTED] T4603.004

[GRAPHIC] [TIFF OMITTED] T4603.005

[GRAPHIC] [TIFF OMITTED] T4603.006

[GRAPHIC] [TIFF OMITTED] T4603.007

  

                                  <all>

</pre></body></html>
